April 2009
Report No. EVAL-09-005

Material Loss Review of Main Street Bank,
Northville, Michigan
                                                                                                               Executive Summary
                                                                                                           Report No. EVAL-09-005
                                                                                                                        April 2009
            April
                                          Material Loss Review of Main Street Bank,
                                          Northville, Michigan
                                          Results of Evaluation
                                          MSB's rapid deterioration and ultimate failure can be attributed to bank management's aggressive
                                          pursuit of loan growth just 9 months after opening, fueled by a significant increase in brokered
Background and Purpose                    deposit funding, and resulting in concentration of higher-risk loan types, including
of Evaluation                             (1) construction and development, (2) home equity, and (3) non-owner occupied residential
                                          improvement loans (rehab loans). The bank’s deterioration was exacerbated by the types of loans
As required by section 38(k) of the
                                          in the concentrations being particularly vulnerable to markets with depressed and declining real
Federal Deposit Insurance Act, the
                                          estate values and high unemployment rates prevalent in the Detroit, Michigan, area where MSB
Office of Inspector General (OIG)
                                          operated.
conducted a material loss review of
the failure of Main Street Bank           The FDIC and Michigan State OFIR conducted timely and regular visitations and examinations
(MSB), Northville, Michigan. On           in accordance with schedules established for de novo banks. The FDIC also provided oversight
October 10, 2008, the Michigan            of MSB through its offsite monitoring activities. In approving MSB's revised business plan, the
Office of Financial and Insurance         FDIC and OFIR imposed additional reporting requirements on MSB. However, we concluded
Regulation (OFIR) closed MSB and          that more aggressive or timelier supervisory actions could have been taken in several areas.
named the FDIC as receiver. The
FDIC notified the OIG on October          MSB Management: DSC and OFIR examiners rated MSB Management a “2” in all
17, 2008, that the total assets at        examinations until the April 2008 examination where examiners proposed that Management be
closing were $102 million, and the        downgraded to a “4.” Examiners commented in prior Reports of Examination (ROE) that MSB's
initial estimated loss to the Deposit     BOD was engaged in the bank’s operations, and that the ratings were based, in part, on the
Insurance Fund (DIF) was                  effectiveness of bank management and the strength of MSB's monitoring of bank operations.
$36 million.                              Examiners based their proposed 2008 downgrade of Management, in part, on bank management
                                          and the BOD allowing very rapid loan growth (from 2005 to mid-2007), resulting in high
MSB, a state-chartered nonmember          potential credit risk in certain areas of MSB’s lending portfolios, which ultimately caused the
bank, was established and insured on      bank’s deteriorated financial position. Examiners had noted concerns in these areas in prior
March 1, 2004. As a de novo bank,         examinations but neither downgraded MSB’s Management rating nor initiated enforcement
for its first 3 years in operation, MSB   actions because examiners concluded that MSB management was appropriately addressing the
was subject to additional regulatory      additional risks in the loan portfolios and had committed to addressing examiners’ concerns.
controls and supervision, including
additional requirements imposed           Loan Concentrations: MSB concentrations for construction loans exceeded supervisory criteria
upon the financial institution as a       established in interagency guidance. Given the de novo status of MSB, examiners could have
result of significant changes to its      been more aggressive in 2007 by formally recommending that MSB take steps to mitigate the
original business plan. MSB had no        risks associated with the types of loan concentrations identified or initiating informal
subsidiaries or affiliates.               enforcement actions to address examiners’ concerns about concentrations reported in the 2007
                                          ROE.
MSB’s loan portfolio was                  Brokered Deposits: MSB relied heavily on brokered deposits, with levels reaching nearly
concentrated in Commercial Real           68 percent of total deposits in 2006. The 2006 and 2007 ROEs included a recommendation for
Estate (CRE), Construction,               MSB’s BOD to monitor brokered deposits and enhance the liquidity policy to describe
Residential Rehabilitation, and           acceptable funding sources, respectively. However, while MSB agreed to the 2006
Home Equity loans. The federal            recommendation, bank management only agreed to consider the 2007 recommendation. Further,
financial regulators issued guidance      the FDIC waived the requirement that MSB’s BOD respond to the 2007 recommendations, citing
in December 2006 on a risk                management’s commitments to address the reported weaknesses as a reason for the waiver.
management framework that                 MSB continued to rely heavily on brokered deposits through January 2008.
identifies, measures, and controls
CRE concentration risk.                   Business Plan Modifications: DSC allowed MSB to substantially revise its business plan
                                          9 months after opening to include pursuing high loan growth and increased reliance on brokered
                                          deposits. In accordance with requirements associated with MSB’s changes to its original
                                          business plan, the bank submitted monthly reports to the FDIC and OFIR beginning in March
                                          2005. MSB’s reports included information on concentrations and brokered deposits and served
                                          as a means by which the FDIC could have monitored key activities of the bank. While we saw
                                          some evidence of the FDIC’s review of MSB’s monthly reports, we did not find any FDIC
                                          communication to MSB providing feedback on the extent of concentrations or the level of
                                          brokered deposits. Further, the FDIC and OFIR waived the reporting requirement in May 2006
                                          while MSB was still a de novo bank.
                                                                                                                Executive Summary
                                                                                                            Report No. EVAL-09-005
                                                                                                                         April 2009
            April
                                       Material Loss Review of Main Street Bank,
                                       Northville, Michigan
                                       Results of Evaluation (continued)

                                       Examination Schedule in 2008: DSC exercised proactive supervision during 2008 by
                                       accelerating its examination schedule and joining OFIR on a joint examination of MSB in April
                                       2008. Notwithstanding, a visitation in January or February 2008 may have been beneficial, given
                                       the asset quality, liquidity, and capital issues discussed with MSB management in December 2007.
Background and Purpose
of Evaluation (continued)              Prompt Corrective Action: From March to September 2008, the FDIC issued four notifications
                                       to MSB alerting the bank of applicable restrictions under PCA when MSB fell below the Well
                                       Capitalized category. The FDIC issued the enforcement actions in accordance with PCA capital
According to the CRE guidance,         provisions. However, these PCA actions were not effective in preventing MSB’s failure and the
the framework should include           resulting material loss to the insurance fund. In addition, MSB purchased $16 million in brokered
effective oversight by bank            deposits in January 2008 despite incurring a material event in December 2007 which left the bank
management, including the board        less than well capitalized. Consistent with PCA provisions, it would have been prudent for the
of directors (BOD) and senior          bank to have informed the FDIC of its capital status prior to purchasing the brokered deposits.
executives, and sound loan             Fortunately, the purchases did not increase the cost of MSB’s failure to the fund. We also
underwriting, credit administration,   concluded that examiners could have considered using non-capital provisions of PCA in
and portfolio management               supervising MSB to curtail the bank’s activities that ultimately caused a material loss to the DIF.
practices.
                                       FHLB Advances: MSB acquired $6 million in Federal Home Loan Bank (FHLB) advances in
                                       April and July 2008 to supplement the bank’s liquidity even though the bank was less than well
The evaluation objectives were to:
                                       capitalized. FHLB advances are an important source of liquidity intended primarily to promote
(1) determine the causes of the        residential and small business lending. DSC indicated that MSB used FHLB advances
financial institution’s failure and    appropriately and that the advances were important to preventing a disruptive liquidity failure.
resulting material loss to the DIF     However, FHLB advances can increase the cost of bank failures to the FDIC because such secured
and (2) evaluate the FDIC’s            borrowings subordinate the FDIC’s position at resolution and must be paid first. FDIC guidance
supervision of the institution,        references regulatory restrictions on FHLB advances for banks operating without adequate tangible
including implementation of the        capital. However, the guidance does not fully address how DSC should monitor or restrict
Prompt Corrective Action (PCA)         institutions’ use of FHLB advances. The implication of FHLB advances on the supervisory
provisions of Section 38, in order     approach to a troubled institution is an issue requiring further corporate study.
to make recommendations for
preventing such loss in the future.    The FDIC OIG plans to issue a series of summary reports on material loss reviews and will make
                                       appropriate recommendations related to the failure of MSB and other FDIC-supervised banks at
Financial institution regulators and   that time.
examiners use the Uniform
Financial Institutions Rating          Management Response
System (UFIRS) to evaluate a
bank’s performance in six              DSC provided a written response to the draft of this report. DSC generally agreed with our
components represented by the          conclusions regarding the causes of MSB’s failure. However, DSC stated that its supervisory
CAMELS acronym: Capital                actions were both timely and appropriate for MSB’s situation. Our view remains that more
adequacy, Asset quality,               aggressive or timelier supervisory actions could have been taken to address risks associated with
Management practices, Earnings         MSB’s plans, operations, and financial condition. Regarding our observation related to MSB’s use
performance, Liquidity position,       of FHLB advances during the period that the bank was receiving PCA capital notifications, DSC
and Sensitivity to market risk.        stated that MSB acquired FHLB advances to improve its liquidity position and not to fund growth
Each component, and an overall         or further lending. We acknowledge that MSB was using the advances for liquidity, which poses
composite score, is assigned a         less risk than aggressive growth. Nevertheless, the FHLB advances can reduce an institution’s
rating of “1” through “5”, with “1”    franchise value and increase FDIC resolution costs, as discussed in the Corporation’s recent
having the least regulatory concern    guidance to institutions on volatile or special funding sources. Given the risk to the insurance
and “5” having the greatest            fund, additional and more specific examination procedures in this area may be warranted. DSC’s
concern.                               response did not address the consideration of non-capital PCA provisions or the timing of brokered
                                       deposit purchases MSB made when the bank apparently knew it was no longer well capitalized.
To view the full report, go to         We continue to suggest these issues warrant further study. Finally, DSC’s response describes a
                                       number of initiatives that it has taken related to the supervision of MSB and similarly situated
www.fdic.gov/2009report.asp
                                       institutions. These initiatives include providing examiners with additional information for risk
                                       analysis purposes, issuing guidance, revising supervisory approaches, and training.
                           TABLE OF CONTENTS

                                                         Page

BACKGROUND                                                 2

RESULTS IN BRIEF                                           4

CAUSES OF MSB’s FAILURE                                    4

FDIC’s SUPERVISION OF MSB                                  5

  MSB Management                                           5
  Loan Concentrations                                      7
  Brokered Deposits                                       13
  Business Plan Modifications                             15
  Examination Schedule in 2008                            17
  Prompt Corrective Actions                               20
  Federal Home Loan Bank Advances                         24

CORPORATION COMMENTS AND OIG EVALUATION                   27

APPENDICES
  I.    OBJECTIVES, SCOPE, AND METHODOLOGY                29
  II.   GLOSSARY                                          31
  III. CHRONOLOGY OF SIGNIFICANT EVENTS                   33
  IV. FDIC AND OFIR REPORTS OF EXAMINATION                35
  V.    EXAMINATION RECOMMENDATIONS AND ENFORCEMENT       39
        ACTIONS
  VI. CORPORATION COMMENTS                                42



TABLES
  1. Financial Condition of Main Street Bank               3
  2. MSB’s Loan Concentrations with Capital Guidelines    11
  3. PCA Capital Categories and Ratios                    20
  4. PCA Notifications to MSB                             21
                             ACRONYMS


ALCO          Asset and Liability Committee
ALLL          Allowance for Loan and Lease Losses
BOD           Board of Directors
CAMELS        Capital, Asset Quality, Management, Earnings, Liquidity, and
              Sensitivity to Market Risk
C&D           Cease and Desist
CFO           Chief Financial Officer
CLP           Contingency Liquidity Plan
CRE           Commercial Real Estate
CRO           Chicago Regional Office
CRP           Capital Restoration Plan
DIF           Deposit Insurance Fund
DFO           Detroit Field Office
DRR           Division of Resolutions and Receiverships
DSC           Division of Supervision and Consumer Protection
FDI Act       Federal Deposit Insurance Act
FHLB          Federal Home Loan Bank
FIAP Manual   Formal and Informal Action Procedures Manual
FIL           Financial Institution Letter
HELOC         Home Equity Line of Credit
MOU           Memorandum of Understanding
MSB           Main Street Bank, Northville, Michigan
OFIR          Office of Financial and Insurance Regulation (Michigan)
OIG           Office of Inspector General
PCA           Prompt Corrective Action
ROE           Report of Examination
UBPR          Uniform Bank Performance Report
UFIRS         Uniform Financial Institutions Rating System
Federal Deposit Insurance                                                                     Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General


DATE:                                     April 15, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /S/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for
                                          Evaluations and Management

SUBJECT:                                  Material Loss Review of Main Street Bank,
                                          Northville, Michigan (Report No. EVAL-09-005)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss 1 review of the failure of Main
Street Bank (MSB), Northville, Michigan. On October 10, 2008, the Michigan Office of
Financial and Insurance Regulation (OFIR) closed MSB and named the FDIC as receiver.
On October 17, 2008, the FDIC notified the OIG that MSB’s total assets at closing were
$102 million and the material loss to the Deposit Insurance Fund (DIF) was $36 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA), and ascertains
why the institution’s problems resulted in a material loss to the DIF.

The evaluation objectives were to: (1) determine the causes of MSB’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act,
in order to make recommendations for preventing such loss in the future. Appendix I
contains details on our objectives, scope, and methodology. Appendix II contains a
glossary of terms used in this report.

The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised
institutions, protects consumers’ rights, and promotes community investment initiatives
by FDIC-supervised insured depository institutions. The FDIC’s Division of Supervision
and Consumer Protection (DSC) (1) performs safety and soundness examinations of
FDIC-supervised institutions to assess their overall financial condition, management
practices and policies, and compliance with applicable laws and regulations; and
1
 As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
 (2) issues related guidance to institutions and examiners. Through the examination
 process, DSC also assesses the adequacy of management and internal control systems to
 identify and control risks.

 Financial institution regulators and examiners use the Uniform Financial Institutions
 Rating System (UFIRS) to evaluate a bank’s performance in six areas represented by the
 CAMELS acronym: Capital adequacy, Asset quality, Management practices, Earnings
 performance, Liquidity position, and Sensitivity to market risk. Each area is given a
 rating of “1” through “5,” with “1” having the least regulatory concern and “5” having
 the greatest concern. The Glossary in Appendix II contains further details.

 This report presents the FDIC OIG’s analysis of MSB’s failure and the FDIC’s efforts to
 require MSB’s management to operate the bank in a safe and sound manner. The FDIC
 OIG plans to issue a series of summary reports on the material loss reviews it is
 conducting and will make appropriate recommendations related to the failure of MSB and
 other FDIC-supervised banks at that time. The summary reports will include major
 causes, trends, and common characteristics of financial institution failures resulting in a
 material loss to the DIF. Recommendations in the summary reports will address the
 FDIC’s supervision of the institutions, including implementation of PCA provisions of
 section 38.



BACKGROUND
 MSB was a state-chartered nonmember bank, established by the OFIR and insured by the
 FDIC, effective March 1, 2004. MSB, headquartered in Northville, Michigan, was
 owned by Main Street Bancorp, Inc., a one bank holding company, and had two branches
 -- one in Northville, Michigan (closed in early 2008) and one in Plymouth, Michigan.
 MSB had no subsidiaries or affiliates, other than its parent. MSB’s initial business plan
 involved offering traditional deposit and credit products to its local community –
 residential mortgage products, consumer loans, and loans to area businesses, including
 commercial real estate (CRE) and small business loans. MSB projected that its total
 assets would reach $71 million at the end of the third year of business.

 DSC’s Detroit Field Office (DFO) and OFIR conducted safety and soundness
 examinations of MSB. With the exception of the April 2008 joint FDIC and OFIR
 examination, MSB was rated a CAMELS composite “2” since receiving deposit
 insurance in 2004. Examinations were conducted in February 2005 (DSC), January 2006
 (OFIR), February 2007 (DSC), and April 2008 (Joint). 2 In addition, DSC conducted a
 6-month visitation beginning in August 2004, and DSC and OFIR completed a 6-month
 offsite review in August 2007. Although MSB received a composite “2” rating at the
 February 2007 examination, examiners reported some asset quality weaknesses and
 concerns with higher-risk loan types such as construction loans, home equity lines of

 2
  The Report of Examination (ROE) for the April 21, 2008 examination was a draft report and was not
 officially issued to MSB.


                                                   2
 credit (HELOC), and residential rehabilitation loans. 3 At the 2008 examination, MSB’s
 composite rating was downgraded to a “5” due to severe asset quality problems, negative
 earnings, and capital erosion. On July 22, 2008, the FDIC and OFIR issued a Cease and
 Desist (C&D) Order. 4 On September 12, 2008, MSB was officially notified that it was
 “Critically Undercapitalized” for PCA purposes. On October 10, 2008, OFIR closed
 MSB and named the FDIC as receiver. Appendix III is a chronology of significant events
 leading up to the failure of MSB. Appendix IV illustrates the results of DSC’s and
 OFIR’s examinations of MSB.

 Table 1 provides a snapshot of MSB’s financial condition as of March 2008 – the Call
 Report date used for the last examination of the Bank in April 2008 – and for the 4
 preceding years.

 Table 1: Financial Condition of Main Street Bank
                               Mar.-08 Dec.-07                           Dec.-06       Dec.-05         Dec.-04
Total Assets (Dollars in Thousands)       $131,877        $136,947       $140,788      $95,001         $31,945
Total Deposits (Dollars in Thousands)     $119,904        $121,785       $122,770      $84,329         $25,615
Total Loans (Dollars in Thousands)        $ 95,811        $104,709       $117,867      $79,516         $25,311
 Net Loan Growth Rate                     -23.08%         -11.16%        48.23%        214.16%         n/a
Net Income (Loss) (Dollars in
Thousands)                                ($3,185)        ($4,978)       $458          ($804)          ($1,207)
Loan Mix (% of Avg. Gross Loans):
All Loans Secured by Real Estate
  Construction and Development            19.62%          21.96%         26.88%        17.96%          5.42%
  CRE – Non-farm/non-residential          25.46%          22.13%         16.81%        17.76%          21.24%
  Multifamily Residential RE              .76%            .99%           1.04%         1.25%           n/a
  1-4 Family Residential (includes        42.57%          42.60%         43.75%        49.07%          56.88%
  HELOCs)
  HELOCs                                  13.59%          12.39%         16.94%        24.61%          29.84%

Adversely Classified Items
Coverage Ratio*                            227.10%          35.59%          3.64%             0                0
Examination As of Dates                   3-31-2008 12-31-2006 9-30-2005 12-31-2004 6-30-2004
 Source: Uniform Banking Performance Report (UBPR) and Reports of Examination.
 *Note: This ratio is a measure of the level of asset risk and the ability of capital to protect against that risk,
 and it is the most commonly referenced asset quality ratio.




 3
   Rehabilitation loans (referred to as “Rehab Loans”) are loans made to investors for the purpose of
 acquiring distressed properties in disrepair, making necessary improvements, and reselling the properties
 for a profit.
 4
   Congress has given the FDIC and other federal bank supervisory agencies additional and intermediary
 powers with respect to banks engaging in or about to engage in unsafe or unsound practices or violations of
 laws or regulations. This authority permits the use of “Cease and Desist” orders in situations where
 available facts and evidence reasonably support the conclusion that a bank is engaging in or about to
 engage in an unsafe or unsound practice or violation of law.


                                                         3
RESULTS IN BRIEF
 MSB's rapid deterioration and ultimate failure can be primarily attributed to bank
 management's aggressive pursuit of loan growth just 9 months after opening, fueled by a
 significant increase in brokered deposit funding, and resulting in concentration of higher-
 risk loan types, including (1) construction and development, (2) home equity, and
 (3) non-owner occupied residential improvement (rehab) loans. The bank's deterioration
 was exacerbated by the types of loans in the concentrations being particularly vulnerable
 to markets with depressed and declining real estate values and high unemployment rates
 prevalent in the Detroit, Michigan area where MSB operated. MSB management and the
 board of directors (BOD) allowed for rapid growth throughout the bank’s de novo 5
 period, which resulted in the concentration of high-risk loan products. This strategy left
 the bank highly vulnerable to weaknesses in the loan administration process, the
 economic downturn, and declining real estate values.

 The FDIC and OFIR conducted timely and regular examinations in accordance with
 regulatory schedules 6 established for de novo banks. In addition, DSC conducted its
 initial limited-scope examination of MSB (6-month visitation), within the timeframe
 prescribed by DSC regional guidance. The FDIC also provided oversight of MSB
 through its offsite monitoring activities. Further, in approving MSB's revised business
 plan, the FDIC and OFIR imposed additional reporting requirements on MSB. In regard
 to PCA, enforcement actions addressing MSB’s capital deficiencies in 2008 were taken
 in accordance with PCA capital provisions.

 However, the FDIC could have exercised more aggressive or timelier supervision in
 several areas related to MSB management, loan concentrations, brokered deposits,
 business plan revisions, and the 2008 examination schedule. We also made several
 observations regarding non-capital PCA provisions; the timing of brokered deposit
 purchases and PCA notifications; and the implications of MSB’s use of Federal Home
 Loan Bank (FHLB) advances as a source of liquidity.


CAUSES OF MSB’s FAILURE
 MSB Management’s Attention to the Bank’s Safety and Soundness: MSB
 management and the BOD allowed for rapid growth throughout the bank’s de novo
 period, which resulted in the concentration of high-risk loan products. This strategy left
 the bank highly vulnerable to weaknesses in the loan administration process, the
 economic downturn, and declining real estate values.


 5
   For purposes of this report, de novo refers to the first 3 years of the financial institution’s operations.
 6
   Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
 requires an annual full-scope, onsite examination of every state nonmember bank at least once during each
 12-month period and allows for 18-month intervals under certain circumstances. In the case of de novo
 banks, subsequent to the first examination and through the third year of operation, at least one examination
 should be performed each year.


                                                       4
 MSB’s Aggressive Pursuit of Loan Growth: In December 2004, 9 months after being
 established, MSB requested a modification to its original business plan because the bank
 was experiencing a higher demand for CRE and consumer loans than originally
 projected, and that demand outpaced its core deposit growth. MSB’s revised business
 plan included increasing its brokered deposits and initiating two capital-raising
 campaigns to allow for a projected growth in assets to $129 million at the end of year
 three. In November 2005, MSB requested a second modification to its business plan--
 revising the plan slightly to request an additional increase in total loans and total brokered
 deposits at December 31, 2005, which would result in total assets of $133 million at the
 end of year three. MSB experienced a rapid growth in assets from the time of the
 business plan modification in late 2004 through 2006 – a 197 percent growth in assets
 during 2005 and an additional 48 percent growth in assets during 2006.

 Concentration of Higher-Risk Loan Types: DFO examination staff and DSC Chicago
 Regional Office (CRO) management identified poor quality loans as a contributing factor
 to MSB’s ultimate failure. DSC specifically mentioned MSB’s concentrations in
 construction and development loans, home equity loans, and rehab loans. DSC identified
 a concentration in these loans in its February 2007 examination, noting that these loan
 types are particularly vulnerable to markets with depressed and declining real estate
 values and high unemployment rates.

 MSB’s Use of Brokered Deposits to Fund Asset Growth: MSB’s rapid loan growth
 was funded in part through brokered deposits, making the use of brokered deposits a
 contributing factor to the failure. MSB projected a significant increase in brokered
 deposit funding -- from 7 percent in its original business plan to 66 percent of total
 deposits in its December 2004 business plan. MSB’s brokered deposit levels reached a
 high of nearly 68 percent of total deposits in October 2006, and the Bank’s reliance on
 brokered deposits consistently exceeded its peer group in 2006 and 2007. In the 2006
 and 2007 ROEs, examiners noted a high level of brokered deposits and reported that the
 exceptionally high brokered deposits-to-deposits ratio was attributed to MSB’s very high
 rate of loan production and not to a failure to generate core deposits.


FDIC’s SUPERVISION OF MSB
 The FDIC and OFIR conducted visitations and examinations in accordance with
 regulatory schedules established for de novo banks, and the FDIC provided oversight of
 MSB through its offsite monitoring activities. However, we identified areas where more
 aggressive or timelier supervisory actions could have been taken, as discussed in the
 following sections.

 MSB Management

 DSC and OFIR examiners rated MSB management a “2” in all examinations of the bank
 until the April 2008 examination where examiners proposed that Management be
 downgraded to a “4.” Examiners commented in their ROEs that MSB's BOD was


                                               5
engaged in the bank’s operations and that the Management ratings were based, in part, on
the effectiveness of bank management and the strength of MSB's monitoring of bank
operations. We reviewed MSB BOD minutes for 2006, 2007, and early 2008 and saw
that the BOD and management discussed key areas such as loan growth and
concentrations; brokered deposits; and examination/audit findings, recommendations, and
corrective actions. According to the 2008 ROE, the “4” rating for Management reflected
examiners’ assessment of the BOD’s and management’s performance, as well as the
unacceptable performance in the remaining CAMELS components – Capital, Asset
Quality, Earnings, Liquidity, and Sensitivity to Market Risk.

DSC examination policies state that the quality of bank management is probably the
single most important element in the successful operation of a bank and emphasize that in
the complex, competitive, and rapidly changing environment of financial institutions, it is
important for bank management to be aware of their responsibilities and to discharge
those responsibilities in a manner that will ensure stability and soundness of the
institution. A bank’s BOD is responsible for formulating sound policies and objectives
for the bank, effective supervision of its affairs, and promotion of its welfare, and the
primary responsibility of senior management is to implement the BOD’s policies and
objectives of the bank’s day-to-day operations.

Prior to the April 2008 examination, examiners consistently gave MSB a rating of “2” for
Management, which, by definition, indicates satisfactory management and BOD
performance and risk management practices relative to the bank’s size, complexity, and
risk profile. In general, this rating also implies that significant risks and problems are
effectively identified, measured, monitored, and controlled by the bank’s management
and its BOD.

In the 2006 ROE, examiners reported that (1) MSB management and BOD oversight,
direction, and regulatory compliance were considered satisfactory; (2) executive
management was considered effective in directing bank activities and identifying and
limiting MSB’s potential risk exposure; and (3) MSB management was maintaining a
rapidly growing de novo bank. In the February 2007 examination, examiners stated that
the quality of management was reflected in the overall satisfactory condition of the bank
and reported the following observations in regard to management:

•   Senior management and the BOD have established sound policies and procedures,
    coupled with a comprehensive monitoring and reporting structure.
•   Management is appropriately addressing the additional risks in the loan portfolio
    (loan concentrations which are discussed in the next section of this report).
•   Management has an action plan to reduce the level of problem loans – loans identified
    in the 2007 examination as adversely classified assets totaling approximately 35.6
    percent of capital and 3.8 percent of total assets.
•   The BOD is active in the management of the bank and, with one exception, has
    regular attendance and active participation during BOD and committee meetings.
•   Management is receptive to recommendations and findings of third-party reviews and
    regulatory examinations.


                                            6
In regard to the BOD’s active participation in managing the bank, we reviewed the
minutes for the monthly BOD meetings held in 2006, 2007, and early 2008, and noted
that key areas were discussed at the meetings including, brokered deposits; loan growth,
concentrations, exceptions, and delinquencies; and examination and audit findings,
recommendations, and corrective actions. For example, the minutes for the
March 22, 2006 BOD meeting referenced a discussion of the OFIR 2006 ROE results,
highlighting items requiring BOD oversight, including establishing policy guidelines for
a maximum percentage of brokered deposits and monitoring brokered deposits.

In the April 2008 examination, the examiners’ proposed rating of “4” for Management
was based in part on MSB management and the BOD allowing the bank’s very rapid loan
growth (from 2005 to mid-2007), resulting in high potential credit risk within certain
areas of the bank’s lending portfolios (rehab, residential development, HELOC, and
vacant land loans), which ultimately caused the bank’s deteriorated financial position.
Examiners acknowledged that MSB management started strengthening loan policies and
practices in late 2006 and early 2007 in response to examination findings, but examiners
were critical of MSB management for expanding into higher-risk loan products in 2006
and 2007 and allowing the resulting high concentrations that played a material role in the
Bank’s deteriorating condition. As discussed in the next section of this report, examiners
had noted concerns in these areas in prior examinations but neither downgraded MSB’s
management rating nor initiated enforcement actions because they concluded that
management was appropriately addressing the additional risks in the loan portfolio and
had committed to addressing examiners’ concerns.

Loan Concentrations

Given the de novo status of MSB, examiners could have been more aggressive in the
February 2007 examination of the bank by initiating informal enforcement actions or
formally recommending that MSB take steps to mitigate the risks associated with the
types of loan concentrations identified in MSB’s operations. In the 2007 ROE,
examiners reported MSB’s concentration in inherently high-risk loans and that MSB was
not formally monitoring the concentration limits or reporting the results to its BOD on a
regular basis. Examiners also stated that MSB’s policies regarding concentrations were
not clear. Although examiners did not formally recommend corrective action to address
this finding, the ROE stated that MSB management would revisit the concentration limits
within the bank’s loan policy and begin to report and monitor the limits.

On December 12, 2006, the FDIC issued Financial Institution Letter FIL-104-2006,
Commercial Real Estate (CRE) Lending Joint (Interagency) Guidance, which provides
supervisory criteria, including numerical indicators, for identifying institutions with
potentially significant CRE loan concentrations that may warrant greater supervisory
scrutiny. FIL-104-2006 included two specific supervisory criteria for the Office of the
Comptroller of the Currency, the Board of Governors of the Federal Reserve System, and
the FDIC to use as a preliminary step to identify institutions that may have CRE
concentration risk: (1) Total reported loans for construction, land development, and other



                                            7
land representing 100 percent or more of an institution’s total capital; or (2) Total
commercial real estate loans representing 300 percent or more of the institution’s total
capital when the outstanding balance of the institution’s CRE loan portfolio has increased
50 percent or more during the prior 36 months.

DSC’s Risk Management (RM) Manual includes information regarding the preparation of
a Concentrations Schedule for inclusion in the ROE. The purpose of this schedule is to
identify possible absence of risk diversification within the bank’s asset structure. In
addition, the RM Manual defines concentrations and discusses the need for bank
management policies in this area.

We noted that MSB’s policy on concentrations conformed to the FIL-104-2006
interagency guidance for CRE loans but exceeded the supervisory criteria for
construction loans. Specifically, MSB’s Portfolio Diversification Policy, effective
February 1, 2006, stipulated that loan concentrations are not to exceed the following
percentages of Tier 1 Capital:

•   CRE                    300 percent.
•   Non-CRE                200 percent.
•   Consumer               100 percent.
•   Residential            300 percent.
•   Construction           150 percent.

As discussed further below, DSC became aware of MSB loan concentrations through:
(1) OFIR’s January 2006 ROE, (2) MSB’s information on loan concentrations in the
monthly reports submitted to DSC beginning in March 2005, and (3) the 2007 and 2008
examinations. We also noted that eight quarterly Offsite Review Reports (March, June,
September, and December in 2006 and the same months in 2007) identified
concentrations in MSB’s portfolio.

2006 OFIR Examination: OFIR reported construction and real estate industry
concentrations in the confidential pages of its 2006 ROE. Specifically, examiners
reported MSB’s three largest industry concentrations – residential buildings and
dwellings, residential remodelers, and nonresidential buildings – totaling slightly over
$14.5 million.

OFIR’s 2006 ROE also included a discussion on monitoring real estate loans that exceed
recommended supervisory loan-to-value (LTV) limits. 7 OFIR reported that the
examiners’ review of loan files disclosed several of these types of loans and
recommended that MSB establish a means for monitoring and reporting Part 365 loan
exceptions. We noted that MSB’s March 22, 2006 BOD meeting minutes included an
action item that indicated MSB had established a mechanism for monitoring and
7
  According to the 2006 OFIR ROE, pursuant to Part 365 of the FDIC Rules and Regulations – Interagency
Guidelines for Real Estate Lending Policies, real estate loans that exceed recommended supervisory LTV
limits established by regulatory authorities are limited in the aggregate to 100 percent of Tier 2 Capital and
must be identified and reported to the BOD.


                                                      8
reporting LTV exceptions for real estate lending. Nevertheless, the 2008 ROE included a
repeat finding that LTV limits were not being tracked or reported to the BOD.

MSB Monthly Reporting: As discussed in other sections of this report, FDIC and OFIR
required MSB to submit monthly reports as a condition of MSB’s request for business
plan revisions. Starting in March 2005, MSB submitted monthly reports to DSC’s CRO,
which included Summary of Loan Portfolio Reports showing industry concentrations,
number of loans, total portfolio, percentage of concentrations to total portfolio, and
percentage of loans to capital (for certain months). Examiners usually report industry
concentrations as a percentage of Tier 1 Capital in the ROE’s Summary Analysis of
Examination Report (SAER) schedule. MSB’s February 2006 monthly loan report
identified the five largest industry concentrations as of January 31, 2006, including
38 loans to residential builders valued at nearly $10.1 million, representing
approximately 102 percent of Tier 1 Capital.

2007 and 2008 Examinations: The 2007 and 2008 ROEs for MSB identified
concentrations in (1) construction, land development, and other land loans, and
(2) non-owner occupied commercial real estate (CRE) loans. The 2007 ROE included a
section on Concentrations of Credit – 60 percent of total loans reported for:
(1) construction and development loans (204 percent of Tier 1 Capital), (2) home equity
loans (142 percent of Tier 1 Capital), and (3) rehab loans (100 percent of Tier 1 Capital).
The 2008 ROE included a schedule identifying high CRE concentrations (345 percent of
Capital), construction concentrations (119 percent of Capital), and industry
concentrations (305 percent of Capital).

The 2007 ROE stated that bank policy guidelines and definitions regarding loan
diversifications and concentration limits were not clear, and that MSB was not formally
monitoring or reporting the concentrations to the BOD on a regular basis. While DSC
rated Asset Quality a “3,” DSC examiners did not make a formal recommendation in the
2007 ROE in regard to concentrations. The Risk Management Assessment pages of the
2007 ROE mentioned segmenting the rehab loans and establishing an ALLL allocation
for concentrations of credit, but MSB’s response to the ROE did not address these issues.

At the bank’s request, in August 2007, MSB management met with DSC and OFIR
examiners and described the following actions it had taken to address asset quality issues
identified in the February 2007 examination:

•   reviewed every loan in the bank’s portfolio;
•   established a policy to limit speculative construction financing to one home per
    builder in response to a concentration in construction and development loans
    identified in the 2007 ROE and tightened credit standards in an attempt to reduce the
    bank’s exposure to risks with regard to home equity loans identified as a
    concentration in the 2007 ROE; and
•   narrowed the market area in which rehabilitation loans were offered and started
    requiring that inspections be performed in response to concentrations included in the
    2007 ROE.


                                             9
DSC told us that because MSB management committed to address the concentrations and
improve tracking the concentration limits, there was no need to recommend further
actions. In regard to initiating an informal enforcement action, DSC said that MSB was
operating within an approved Deposit Insurance Order, with amendments, and was a “2”
rated bank; therefore, it is unlikely that the FDIC would have considered initiating an
informal action against MSB as part of the 2007 examination.

DSC’s RM Manual and the FDIC’s Formal and Informal Action Procedures Manual
(FIAP Manual) include provisions for examiners to make formal recommendations or
initiate formal or informal enforcement actions designed to address and correct identified
weaknesses in a bank’s financial condition, performance, risk management practices, or
regulatory compliance. Examiners are expected to document examination findings,
conclusions, recommendations, and management responses in the ROEs. Examination
recommendations are intended to improve the bank’s safety and soundness practices, and
examiners should obtain affirmative commitments from the bank’s management and its
BOD to correct problems and weaknesses. The RM Manual also includes a provision
that examiners should consider management’s responses to previous regulatory and
auditor recommendations.

If corrective actions are not deemed sufficient or examiners determine that stronger
actions are necessary, DSC may also take formal or informal enforcement actions against
a bank. Appendix V details the FDIC’s policies and procedures regarding
recommendations and enforcement actions. The FIAP Manual states that the FDIC
generally initiates informal (or formal) corrective action against financial institutions
with a composite rating of “3,” “4,” or “5,” unless specific circumstances warrant
otherwise. We noted that the FIAP Manual provides that:

•   Informal actions are particularly appropriate when the FDIC has communicated with
    bank management regarding deficiencies and has determined that the institution’s
    managers and its BOD are committed to and capable of effecting correction with
    some direction but without the initiation of a formal corrective action.
•   The FDIC may consider a Bank Board Resolution (BBR), one type of informal
    action, for institutions that receive a composite rating of “2” or a component rating of
    “3” where there may be risk in a particular area that needs to be addressed.

In the case of MSB, the bank was rated a composite “2” with a “3” for Asset Quality in
the 2007 examination. A BBR would have provided the FDIC with a means to obtain
MSB management’s and the BOD’s commitment to: (1) revise the Bank’s portfolio
diversification policy, (2) formally monitor concentrations, and (3) routinely report
volume concentrations to the BOD, especially in light of the deteriorating economic
conditions in Michigan.

Examiners could also have recommended the reinstatement of the requirement for MSB
to submit monthly loan and funding reports to DSC and OFIR, the original condition
imposed upon the bank for approving changes to its business plan. As previously


                                             10
mentioned, DSC and OFIR discontinued this reporting requirement in May 2006. Table
2 shows the loan concentration information included in MSB’s monthly reports that DSC
could have used to monitor MSB’s loan concentrations.

Table 2: MSB’s Loan Concentrations with Capital Guidelines
                                         CRE       Consumer       Residential   Construction
            Description                                                                        Rehab Loans
                                        Loans       Loans           Loans          Loans
 02-28-2007
 Total Portfolio (in thousands)       $48,673       $16,135        $27,332         $18,396
                                                                                               Not Indicated
 Percent of Capital                   354.51%       117.52%        199.07%         133.99%
 Maximum Percent Per Report             500%         150%           300%            200%
 Maximum Percent Per MSB Policy         300%         100%           300%            150%
 03-31-2007
 Total Portfolio (in thousands)        $50,616      $16,225        $30,580         $18,986       $15,486
 Percent of Capital                    367.08%      117.67%        221.77%         137.69%      112.31%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
 05-31-2007
 Total Portfolio (in thousands)        $49,413      $15,374        $33,307         $16,264       $16,312
 Percent of Capital                    361.23%      112.39%        243.49%         118.89%      119.24%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
 06-30-2007
 Total Portfolio (in thousands)        $49,143      $15,184        $31,102         $16,439       $15,460
 Percent of Capital                    373.03%      115.26%        236.09%         124.79%      117.36%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
 07-31-2007
 Total Portfolio (in thousands)        $50,400      $15,020        $30,065         $15,523       $15,659
 Percent of Capital                    382.83%      114.09%        228.37%         117.91%      118.94%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
 08-31-2007
 Total Portfolio (in thousands)        $51,683      $14,914        $29,145         $16,452       $15,429
 Percent of Capital                    391.67%      113.02%        220.87%         124.68%      116.93%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
 09-30-2007
 Total Portfolio (in thousands)        $50,360      $14,919        $28,572         $14,792       $15,238
 Percent of Capital                    399.12%      118.24%        226.44%         117.23%      120.76%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
 12-31-2007
 Total Portfolio (in thousands)        $49,686      $17,279        $20,620         $15,669       $12,043
 Percent of Capital                    550.04%      191.29%        228.27%         173.46%      133.32%
 Maximum Percent                        500%         150%           300%            200%           TBD
 Maximum Percent Per MSB Policy         300%         100%           300%            150%       Not Indicated
Source: MSB’s Summary of Loan Portfolio by Type and MSB Portfolio Diversification Policy.


Had DSC formally made a recommendation or invoked an informal action in the 2007
examination in the form of a BBR to reinstate the monthly loan reporting requirement,
DSC would have learned that:

•   Concentrations of CRE and Consumer loans continued throughout 2007.
•   MSB used numerical indicators in reporting concentrations that differed from the
    limits identified in its Loan Diversification Policy, as shown for CRE, Consumer, and
    Construction loans in Table 2.
•   MSB did not establish limits for rehab loans.



                                                      11
Further, either a recommendation or an informal enforcement action in the 2007
examination would have (1) required management responses to address the loan
concentrations and policy issues, (2) assured BOD commitments to correct the problems,
and (3) prompted follow-up by examiners.

DSC has taken steps to improve its supervisory review of loan concentrations. To
illustrate:

•   An October 2007 email from the DFO Supervisor to DFO staff (copied to CRO
    management) relates to CRE concentrations and the need to determine whether the
    bank has done any stress testing or modeling to determine what would happen to the
    CRE concentration in a downturn and what effect the downturn would have on the
    portfolio and ultimately the bank.
•   The CRO Joint Examination Activities Checklist used for the April 2008 examination
    includes a pre-examination step to determine if the bank being examined meets or is
    approaching the threshold criteria for CRE defined in FIL-104-2006. This step also
    includes a worksheet entitled “Commercial Real Estate Portfolio Analysis” to assist
    the examiner in determining CRE concentrations.
•   On July 31, 2008, DSC issued Regional Director Memorandum (RDM) Transmittal
    Number 2008-021, Supervising Institutions with Commercial Real Estate
    Concentrations, to update and re-emphasize CRE loan examination procedures in
    view of more challenging market conditions, particularly in construction and
    development lending.

In responding to a discussion draft of this report, DSC agreed that there were loan
concentration issues at MSB, but stated that it was actually the manner in which loans
were underwritten and administered that resulted in losses rather than simply the
concentration level of such loans (e.g., MSB’s practice of extending HELOCs where
MSB was not in a first lien position or disbursing the full amount of rehab loans without
documenting that the underlying property was improved). Further, DSC officials in
Headquarters stated that reporting increases in concentrations could be misleading due to
corresponding declines in capital levels. For example, DSC noted that the increase in
concentrations for year-end 2007 shown in Table 2 was related to a 34 percent decline in
capital during 2007 as opposed to an increase in loan activity.

However, in our review of ROEs, examination working papers, correspondence, and
other documents, we saw limited reference to underwriting problems with corresponding
recommended corrective actions in the ROEs. Further, DSC’s Chronology of Events
leading up to MSB’s failure stated that a combination of loan growth, a lending strategy
that resulted in a concentration of higher risk loans, and the deteriorating Michigan
economy contributed to the swift deterioration in the condition of MSB, and that the
general economic downturn further hindered the bank’s ability to raise capital or find an
acquirer. The chronology did not mention underwriting problems as a contributing factor
to MSB’s failure.




                                           12
Brokered Deposits

Given MSB’s significant use of brokered deposits to supplement the bank’s core deposits
and fund the high demand for loan growth and considering the de novo status of the bank,
DSC could have more actively monitored MSB’s brokered deposit activities. DSC
officials became aware of MSB’s intention to increase usage of brokered deposits when
the bank revised its business plan in 2005. DSC monitored MSB’s brokered deposit
levels through its examinations, offsite review activities, and reviews of the monthly
funding reports and ALCO minutes submitted by MSB from March 2005 to May 2006.
However, discontinuing the reporting requirement in May 2006 eliminated a means
through which DSC could have monitored the level of brokered deposits used by MSB
during the remainder of its de novo stage of operations.

FDIC Rules and Regulations, Section 2000, Part 337.6, Brokered Deposits, states that
any Well Capitalized (PCA category) insured depository institution may solicit and
accept, renew, or roll over any brokered deposit without restriction by this section.
The RM Manual states that examiners should not wait for the PCA-based brokered
deposits restrictions to be triggered, or the viability of an institution to be in question,
before raising relevant safety and soundness issues with regard to the use of volatile
funding sources. The RM Manual also describes red flags related to the use of such
funding sources and adds that, if examiners determine that the bank’s use of these
funding sources is not safe and sound, that risks are excessive, or that risks adversely
affect the bank’s condition, then appropriate supervisory action should be taken
immediately. The RM Manual states that in situations with a newly chartered institution
using brokered deposits and having an aggressive growth strategy, examiners may need
to take action to ensure that the risks associated with brokered deposits are managed
appropriately.

Business Plan Revision: MSB’s December 2004 revised business plan included a
projection that brokered deposits were expected to represent two-thirds (approximately
67 percent) of total deposits in the early years and would begin declining as MSB
matured. MSB also projected that its need for brokered deposits would be reduced in
April 2006. In approving MSB’s revised business plan, DSC did not place any limits on
the level of brokered deposits or any stipulations restricting the length of time for MSB to
use this funding source. We noted that MSB continued its use of brokered deposits in
2006 and 2007. Specifically, MSB either purchased or replaced brokered deposits in all
but 4 months of the 24-month period in 2006 and 2007.

A key metric of the risks related to a bank’s liquidity management is the net non-core
deposit dependency ratio. A bank’s net non-core dependency ratio indicates the degree to
which the bank relies on non-core/volatile liabilities such as time deposits of more than
$100,000; brokered deposits; and FHLB advances to fund long-term earning assets.
Generally, the lower the ratio, the less risk exposure there is for the bank. Higher ratios
reflect a reliance on funding sources that may not be available in times of financial stress
or adverse changes in market conditions. MSB’s reliance on brokered deposits
continuously exceeded its peer group in 2006 and 2007. For example, as of year-end



                                             13
2006 and 2007, MSB’s use of brokered deposits was in the 98th and 96th percentile,
respectively, of FDIC-insured banks in the peer group. 8 A high percentile ranking does
not necessarily reflect an unsatisfactory condition. However, when MSB’s use of
brokered deposits ranking is analyzed in the context of the bank being in de novo status
and growing rapidly, the ranking does serve as a red flag for increased management and
examiner attention.

2006 OFIR Examination: The January 2006 OFIR ROE included recommendations
that, in light of the relatively high level of brokered deposits, the MSB BOD (1) monitor
the Brokered Deposits-to-Deposits and Net Non-Core Funding Dependence ratios and
(2) approve an absolute policy guidance limit to the level of brokered deposits that will
be used in relationship to total bank deposits. Although MSB management agreed with
these policy recommendations, DSC noted in its review of MSB’s February 2006
monthly report submission that the report did not include a discussion of these ratios. In
our review of the BOD meeting minutes, we found that, in June 2006, MSB’s BOD
approved the bank’s Liquidity Management Policy in which the ALCO recommended a
73-percent limit for the dependency ratio and a 72-percent maximum limit for the
Brokered Deposits-to-Deposits Ratio. As previously mentioned, both limits are high in
relation to peer group banks. However, DSC examiners did not take issue with the high
limits in the 2007 examination.

2007 DSC Examination: DSC’s 2007 ROE included recommendations to enhance
MSB’s Liquidity Policy. MSB’s Chief Financial Officer (CFO) agreed to consider the
recommendations but did not provide a formal response and planned corrective actions
because DSC waived the requirement for a formal response. However, we saw evidence
in MSB’s Liquidity Management Policy (approved by MSB’s BOD on June 20, 2007,
and included in DSC’s and OFIR’s 2008 examination workpapers) that MSB
implemented the recommendations. Examiners also reported that although brokered
deposits had been used to fund the aggressive loan growth experienced by the bank,
MSB’s brokered deposit program was “considered well managed.”

Contingency Liquidity Plan: According to the RM Manual, a financial institution’s
liquidity policy should have a contingency liquidity plan (CLP) that addresses alternative
funding if initial projections of funding sources and uses are incorrect or if a liquidity
crisis arises. The RM Manual states that the need for a CLP is even more critical for
banks that have an increasing reliance on alternative funding sources and that the CLP
should be updated on a regular basis. MSB’s Contingency Funding Policy included a
provision regarding the bank’s need to ensure sufficient liquidity should the availability
of non-core funding sources decline. This plan also provided for MSB BOD involvement
and included contingency funding procedures. However, we noted that MSB’s policy,
dated February 17, 2005, was not updated to reflect the bank’s significant reliance on
brokered deposit funding requested in the business plan revision. Further, examiners did
not identify the need to update the policy in the 2006 or 2007 examinations.


8
 The UBPR presents three types of data for use in the financial analysis of a bank: (1) the bank’s data,
(2) data for a peer group of banks similar in size and economic environment, and (3) percentile rankings.


                                                    14
The monthly reports submitted by MSB to DSC and OFIR from March 2005 through
May 2006 contained ALCO meeting minutes and funding reports. The ALCO minutes
identified general information regarding MSB’s reliance on brokered deposit funding and
monthly brokered deposit purchases. We also reviewed ALCO minutes for the last half
of 2006 and noted that MSB’s brokered deposits increased during the last half of 2006
and that the bank raised its brokered deposit limitation to 72 percent in July 2006.
Had DSC continued the reporting requirement beyond May 2006, DSC could have
learned about (1) MSB’s continued growth in brokered deposit funding and (2) the
bank’s revised brokered deposit limitation to 72 percent of core deposits (as compared to
the 66-percent limit initially proposed) – sooner than the February 2007 examination.

Business Plan Modifications

In accordance with requirements associated with MSB’s changes to its business plan, the
Bank submitted monthly loan and funding reports and ALCO and Loan Committee
meeting minutes to DSC and OFIR beginning in March 2005. These reports included
information on: loan values, growth, classifications, delinquencies and concentrations;
monthly activity of funds purchased and sold, including brokered deposits; ratios,
including loans to assets, loans to deposits, non-core deposits to assets, liquidity, and
dependency; and bank policy. As previously mentioned, these reports served as a means
by which DSC could monitor key activities of MSB. While we saw some evidence of
DSC’s review of the reports as well as acknowledgments to MSB that the reports were
received, we did not locate any DSC communication to MSB providing feedback on the
concentration ratios or level of brokered deposits activity. In addition, DSC and OFIR
waived the reporting requirement in May 2006 rather than continue the requirement for
the remainder of the bank’s de novo tenure – until March 2007. This is particularly
noteworthy because during that period (June 2006 – March 2007), the availability of
brokered deposits (nearly $93 million as of March 31, 2007) helped MSB in its funding
of high-risk construction loans (nearly $19 million as of March 31, 2007), HELOCs
(nearly $16 million as of March 31, 2007), and rehab loans (over $15 million as of
March 31, 2007).

Proposed financial institutions are required to submit business plans with their initial
applications for federal deposit insurance. According to the FDIC Statement of Policy on
Applications for Deposit Insurance, and in compliance with Sections 5 and 6 of the FDI
Act, the FDIC must be assured that the proposed institution does not present an undue
risk to the DIF. The FDIC expects that proposed institutions will submit a business plan
commensurate with the capabilities of its management and the financial commitment of
the incorporators. Any significant deviation from the business plan within the first
3 years of operation – the de novo phase – must be reported by the insured depository
institution to the primary regulator before consummation of the change. Business plans
that rely on high-risk lending, a special-purpose market, or significant funding from
sources other than core deposits, or that otherwise diverge from conventional bank-
related financial services, require specific documentation as to the suitability of the
proposed activities for an insured institution. Similarly, additional documentation of a




                                           15
business plan is required where markets to be entered are intensely competitive or
economic conditions are marginal.

MSB requested approval from DSC and OFIR to deviate from the business plan,
particularly as it related to loan growth and brokered deposit projections submitted as part
of MSB’s charter and deposit insurance applications. MSB’s proposed revisions to its
business plan included, among other things, the following projections:

•   By mid-year 2005, asset growth will be significantly higher than the original budget.
•   By year-end 2005, loan growth will be 228 percent compared to year-end 2004.
•   Loan growth from 2005 to 2006 will be slightly over 50 percent, or $36 million.
•   Brokered deposits are expected to represent two-thirds (approximately 67 percent) of
    total deposits in the early years and will begin to decline as MSB matures.
•   Additional capital will be secured and in place by October 2005.

In February 2005, MSB obtained DSC’s and OFIR’s approval, in the form of a “non-
objection,” to deviate from its original business plan, with a requirement that MSB
submit monthly loan and funding reports to DSC and OFIR. The reporting requirement
was intended to be in effect until DSC and OFIR directed otherwise. As previously
mentioned, MSB provided the monthly reports starting in March 2005 and ending in
May 2006, at which time DSC and OFIR waived the requirement.

DSC and CRO directives provide that a financial institution can deviate from its original
business plan if it notifies the Regional Director and its primary federal regulator of any
proposed major deviations or material changes from the submitted plan 60 days before
the consummation of the change. Further, a CRO directive dated October 5, 2006,
entitled Guidance for First Onsite Presence for Newly Chartered Institutions, states that
examiners should ensure that bank management is complying with the conditions
stipulated in the Orders for deposit insurance. This directive provides the following
guidelines for examiners to follow in regard to business plans:

•   One of the major focuses of all examinations and visitations conducted during the
    first 3 years of operation should be on compliance with the business plan.
•   A comparison of deposit and loan projections set out in the application to actual
    performance is important.
•   Any excessive growth should be analyzed, including a review of core versus volatile
    funding, and a determination made of the possible adverse impact on liquidity,
    capital, and/or earnings.
•   The nature of the bank’s business should be reviewed and compared to the business
    plan included in the application. For example, it is possible for the institution to
    report growth totals and earnings performance that are comparable to application
    projections, but the manner in which such results are achieved can be materially
    different and create a higher risk profile than what was conveyed in the application.
    Examples include engaging in subprime lending, accepting brokered deposits, and
    starting up Internet banking operations.



                                            16
Accordingly, examiners monitored MSB’s business plan changes through their
examinations conducted in 2005, 2006, and 2007 and noted the following in the
respective ROEs:

•   2005 ROE: Examiners indicated that MSB was operating within the parameters of
    its 3-year business plan. Management had submitted a revised business plan to
    indicate the increased use of brokered deposits to support asset growth. Examiners
    reported that the Bank’s projections were in line with actual performance.
•   2006 OFIR ROE: Industry concentrations were identified in the confidential pages
    of the ROE, and examiners noted that the level of brokered deposits invited
    continuing regulatory scrutiny. Examiners recommended that MSB’s BOD monitor
    brokered deposits.
•   2007 DSC ROE: Examiners identified concentrations in higher-risk loans, but did
    not formally recommend any actions in this regard. Examiners also noted that
    brokered deposits represented 63 percent of total deposits with a Net Non-Core
    Funding Dependence ratio of 66.7 percent, well above the bank’s national peer group
    ratio of 23.1 percent. As previously mentioned, examiners recommended that MSB
    consider enhancing its funding policies to identify acceptable funding sources and an
    acceptable mix of uses by type and maturities. The ROE included a statement that
    MSB’s brokered deposit program was considered well managed.

While these ROEs addressed certain aspects of the revised business plan, examiners did
not specify within their reports to what degree they compared loan concentrations and
projections or broker deposit projections outlined in the revised business plan to the
bank’s actual performance in these areas. Further, DSC discontinued the requirement for
MSB to submit monthly loan and funding reports earlier than the end of the 3-year de
novo period, thereby eliminating one of the means through which DSC could have
monitored actual performance against business plan projections on a continuing basis
rather than waiting for the next annual examination. DSC officials in Headquarters also
noted that there are other means of obtaining information about loan concentrations and
brokered deposit levels, namely the UBPR and Call Reports. However, we note that the
monthly MSB reports contained more timely and more detailed information about loans,
loan concentrations, brokered deposit activity, and policy data related to loans and
funding.

Examination Schedule in 2008

DSC exercised proactive supervision during 2008 by accelerating its examination
schedule and joining the OFIR on a joint examination of MSB in April 2008. MSB
management requested a meeting with DSC and OFIR examiners in July 2007 and
December 2007 to discuss actions taken to address asset quality issues identified in the
2007 examination and to discuss staffing changes at MSB, additional problems, and
expected year-end operating results. DSC’s Examiner-in-Charge (EIC) prepared a
memorandum to the file documenting the July 2007 meeting and a December 14, 2007
memorandum for the CRO Regional Director regarding both meetings. The EIC
recommended that a visitation be scheduled for MSB in late first quarter 2008 or early


                                            17
second quarter 2008. DSC scheduled a full examination for April 2008, which DSC
indicated was an “acceleration of the normally-scheduled August 2008” date for an OFIR
examination. While this proactive supervision is commendable, a visitation in January or
February 2008 may have been beneficial given the asset quality, liquidity, and capital
issues discussed at the December 2007 meeting.

July 2007 Meeting: In July 2007, MSB requested a mid-year meeting with DSC and
OFIR to discuss a staffing change at the Bank, actions taken to address asset quality
issues identified at the February 2007 examination, and additional problems that had
surfaced since the 2007 examination. The following are excerpts from the memorandum
to the file documenting the results of the July 2007 meeting:

•   After the February 2007 examination, management established a 12-member team of
    employees and managers to review every loan in the bank’s portfolio (approximately
    1,100 loans). The review included a documentation review, collateral evaluation,
    and credit quality review. Recognizing the decline in real estate values in Michigan,
    collateral was discounted 25-50 percent.
•   Based on the collateral evaluation, potential losses through 2008 were projected and
    additional provisions to the Allowance for Loan and Lease Losses (ALLL) were
    made to address the potential losses.
•   ALLL provisions eliminated net income for the first two quarters of 2007. MSB
    reported net losses of $691,000 at June 2007.
•   MSB management hired a consulting firm to review the methodology used by the
    bank for its loan review and to validate the bank’s conclusions. Overall, the
    consulting firm came to similar conclusions as bank management in terms of risk and
    ALLL needs.
•   MSB terminated the employment of its senior lending officer and was negotiating
    with an experienced lender to become MSB’s new senior credit officer.
•   MSB told examiners that the bank would exercise caution in booking new loans
    during the weak credit cycle and anticipated no growth in the portfolio in the near
    term. Positive earnings were not expected for 2007.

The memorandum included a note that examiners would continue to monitor MSB’s
delinquency and reported losses throughout 2007 and would contact the bank in
January 2008 (if not earlier) to review asset quality and earnings results with MSB
management.

December 2007 Meeting: In December 2007, MSB requested a second meeting with
DSC and OFIR examiners to discuss further asset deterioration and operating losses. The
following are excerpts from the memorandum prepared by the DSC EIC to document the
meeting and submitted to the DSC CRO Regional Director, through DFO management:

•   Since the 2007 examination, MSB’s loan portfolio continued to deteriorate as the
    Michigan economy and construction/development industry remained extremely weak.
•   MSB forecasted a year-end operating loss of $4.7 million and stated that the capital
    ratio would be negatively impacted by excess liquidity purposely maintained


                                           18
    throughout the quarter in the event that brokered deposits reacted negatively to the
    published September 30, 2007 financial reports. MSB was able to renew the deposits
    that matured during the quarter, but management said that the Bank might take
    similar precautions in January 2008 before the year-end (2007) financial reports
    became public, adding that this posture was consistent with MSB’s contingency
    funding plan.
•   The 2008 strategies included no loan growth, reducing non-performing assets and
    delinquent loans, and continuing mortgage banking activities, which MSB viewed as
    a way to generate revenues (gains on sale) without additional capital.
•   Management was still relying on brokered deposits but would continue to shrink this
    reliance. Brokered deposits at year-end were expected to be $61 million from a high
    of $93 million. Customer deposits had grown to $62 million compared to $45 million
    at year-end 2006.
•   MSB tightened loan policies and enhanced underwriting and controls for portfolio
    lending as a result of the bank’s review of all loans in its portfolio. Management had
    also eliminated rehab, HELOCs, and all out-of-market lending.
•   Financial projections were bleak, asset quality was poor, and MSB would probably
    need additional capital in 2008.

The EIC suggested that DSC schedule an on-site visitation late in the first quarter or early
second quarter of 2008 to validate management’s internal ratings and ALLL allocations
and review management’s capital plan. Although MSB had a composite “2” rating, the
EIC believed that it was appropriate to maintain the bank on the watch list. In response,
the FDIC accelerated an August 2008 scheduled examination to begin in April 2008.
DSC management told us that examination resources were not available before the April
2008 examination.

In discussing the results of our evaluation, DSC explained that at the time of the
December 2007 meeting with MSB management, the first quarter 2008 examination
schedule had been set and initiating an examination within weeks of meeting with bank
management, prior to year-end financial statements becoming available, would have been
inefficient and ineffective. DSC officials also said that it is unlikely that conducting a
visitation in January 2008 would have prevented MSB’s failure or mitigated the FDIC’s
loss exposure. DSC pointed out that its next examination of the bank was scheduled for
March 2010, but that DSC DFO convinced OFIR to move its scheduled August 2008
independent examination of MSB to April 2008 and to make the examination a joint DSC
OFIR review.

We recognize that DSC acted proactively in accelerating the regularly-scheduled
examination of MSB and combining examiner resources with OFIR to conduct the
examination in April 2008. Further, DSC’s position that an examination in January 2008
may not have been efficient due to the unavailability of year-end financial information is
understandable. Notwithstanding, a visitation in January or even February 2008 may
have been beneficial, given DSC’s knowledge of the condition of the bank from the
December 2007 meeting with MSB and because Call Report financial information should



                                            19
have been available in February for examiners to review and monitor for purposes of
assessing capital levels and liquidity management.

Prompt Corrective Actions

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that that are to be triggered depending
on a bank’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking timely action against insured
nonmember banks that are not adequately capitalized. Federal banking regulators
established minimum capital levels for five PCA categories as shown in Table 3.

Table 3: PCA Capital Categories and Ratios
                           Total Risk-                    Tier 1 Risk-
 Code      Category                                                         Leverage Ratio
                          Based Capital                  Based Capital
  W      Well Capitalized  10 percent or                  6 percent or   5 percent or greater
                               more                          more
  A        Adequately       8 percent or                  4 percent or   4 percent or greater or
          Capitalized          more                          more        3 percent or greater if
                                                                         bank has a composite
                                                                         CAMELS rating of
                                                                         “1”
       U      Undercapitalized       Less than 8           Less than 4   Less than 4 percent or
                                      percent               percent      less than 3 percent if
                                                                         bank has a composite
                                                                         CAMELS rating of
                                                                         “1”
       S       Significantly      Less than 6         Less than 3        Less than 3 percent
              Undercapitalized     percent              percent
       C         Critically    The institution’s tangible equity is 2 percent or less
              Undercapitalized regardless of its other capital ratios.
Source: Section 38 of the FDI Act and 57 Federal Register 44866-01.

PCA mandates the imposition of certain restrictions once a financial institution falls
below the Well Capitalized category. For example, an Adequately Capitalized financial
institution cannot accept brokered deposits without a waiver from the FDIC. The FDIC
Rules and Regulations 9 states the following in regard to brokered deposits:

•      An Adequately Capitalized insured depository institution may not accept, renew, or
       roll over any brokered deposits unless it has obtained a waiver of this prohibition
       from the FDIC.




9
    12 C.F.R. § 337.6(b).


                                                   20
  •   Brokered deposits that were previously accepted while the institution was Well
      Capitalized do not require a waiver, but these brokered deposits may not be renewed
      or rolled over until a waiver is obtained.

  Enforcement actions addressing MSB’s capital deficiencies in 2008 were taken in
  accordance with PCA capital provisions. As shown in Table 4, DSC issued four PCA
  notifications to the MSB BOD regarding PCA capital-related provisions.

  Table 4: PCA Notifications to MSB
                                                                               Total      Tier 1
                                                                               Risk-      Risk-      Tier 1
Date of FDIC                         Basis for Notification and Action
                 PCA Category                                                  Based      Based      Leverage
Notification                         Taken
                                                                               Capital    Capital    Ratio
                                                                               Ratio      Ratio
03-18-2008       Adequately           12-31-2007 Reports of Condition and      9.46%      8.20%        6.21%
                 Capitalized          Income.
05-02-2008       Undercapitalized     03-31-2008 Reports of Condition and        6.81%      5.55%      4.03%
                                      Income.
05-08-2008        Significantly       Financial statements for the period        4.35%      3.08%      2.20%
                  Undercapitalized ended 04-30-2008. This notification
                                      required the Bank to submit a capital
                                      restoration plan by 05-31-2008,
                                      restrict asset growth, acquisitions, new
                                      activities, new branches, payment of
                                      dividends, or making any other capital
                                      distribution, management fees, and
                                      senior management compensation.
09-12-2008        Critically          Final August 2008 financial                2.60%      1.34%      1.04%*
                  Undercapitalized statements. The 2008 ROE stated that
                                      if the leverage ratio drops below 2
                                      percent, the FDIC is required under
                                      section 38 of the Federal Deposit
                                      Insurance Act to appoint a receiver for
                                      the institution within 90 days after the
                                      bank becomes Critically
                                      Undercapitalized.
  Source: OIG analysis of PCA notifications.
  *Note: The FDIC also reported the Tangible Equity Capital Ratio at 1.04 percent, which was the same
  level as the Tier 1 Leverage Ratio. This ratio is only presented for the Critically Undercapitalized PCA
  Category.

  Based on our review, we have several observations in regard to MSB’s and DSC’s
  actions related to the timing of brokered deposit purchases and PCA notifications.

  Observations in Regard to MSB: Documentation we reviewed indicates that MSB’s
  BOD apparently knew the bank was no longer well capitalized in late 2007. Specifically,
  the bank’s Capital Restoration Plan (CRP), effective January 1, 2008, stated that the bank
  had maintained a “well capitalized position” since inception on March 1, 2004 through
  November 2007. In addition, the minutes for a December 19, 2007 MSB BOD meeting
  indicate that DSC cautioned the bank during a December 14, 2007 meeting that MSB’s



                                                      21
ability to raise brokered deposits “may no longer be granted under certain capital
situations” and added that a decrease in certain capital ratios would cause the FDIC to
restrict MSB from buying or replacing brokered deposits. At the same BOD meeting,
MSB’s Chief Lending Officer (CLO) presented a recommendation for the bank to charge
off loans totaling slightly over $1.5 million in December. The CLO indicated that the
charge-offs had been reviewed and approved by the Loan Committee earlier that week
(week of December 15-19). The charge-offs and resulting net loss reduced MSB’s
capital and contributed to the bank’s capital depletion.

PCA provisions state that a financial institution is responsible for providing notice to the
FDIC, within 15 calendar days, when an adjustment to its capital category may have
occurred. Specifically, 12 C.F.R. § 325.102 (c), Adjustments to reported capital levels
and capital category, states the following:

•    Notice of adjustment by bank: A bank shall provide the appropriate FDIC regional
     director with written notice that an adjustment to the bank’s capital category may
     have occurred no later than 15 calendar days following the date that any material
     event has occurred that would cause the bank to be placed in a lower capital category
     from the category assigned to the bank for purposes of section 38 and this subpart on
     the basis of the bank’s most recent Call Report or report of examination.
•    Determination by the FDIC to change capital category: After receiving notice of
     adjustment by the bank, the FDIC shall determine whether to change the capital
     category of the bank and shall notify the bank of the FDIC’s determination.

It appears that MSB should have notified the FDIC of the possible change to its PCA
category within 15 calendar days of the December 19, 2007 BOD meeting wherein the
charge-offs were discussed. This is important because MSB purchased $16 million in
brokered deposits on January 11 and 16, 2008 – equivalent to over 26 percent of total
brokered deposits held by MSB as of December 31, 2007. While the bank’s purchases do
not, by definition, constitute a violation of the FDI Act, it would have been prudent and
consistent with the spirit of the Act for MSB to inform DSC of its probable capital
reclassification before the January 2008 purchases of brokered deposits.

Observations in Regard to DSC: In its March 18, 2008 PCA notification, DSC stated
that MSB was “deemed to have been notified of its Adequately Capitalized category” on
January 31, 2008 (the deadline for filing the December 31, 2007 Call Report).10
However, we noted that DSC became aware of MSB’s “less than well capitalized” status
on February 20, 2008 through an offsite review of Call Report data and informed DSC
CRO management (ARDs, Case Managers, and Supervisory Examiners) in an e-mail
dated February 21, 2008, of MSB’s capital category. The e-mail suggested that MSB be
alerted of a potential change in capital category and reminded of deposit insurance
coverage restrictions that involve brokered deposit accounts. On March 18, 2008, DSC
formally notified MSB’s BOD of the bank’s capital category and the brokered deposit
restrictions.
10
 FDIC Rules and Regulations provide that a bank is considered notified of its capital category as of the
most recent (1) filing of its Call Report, (2) delivery of the final ROE, or (3) written notice from the FDIC.


                                                      22
On May 30, 2008, MSB submitted its CRP to DSC and OFIR, and both regulators
reviewed and requested that the bank revise the CRP to include a description of possible
sources of capital and the targeted levels of capital to be obtained. On July 15, 2008,
DSC and OFIR received MSB’s revised CRP. On July 22, 2008, DSC and OFIR issued a
C&D Order to MSB, effective 10 calendar days after issuance, with provisions that
included:

•    maintaining qualified management;
•    developing a program to monitor the C&D Order;
•    ceasing all lending;
•    maintaining Tier 1 Capital at 6 percent by August 31, 2008, and 9 percent by
     December 31, 2008;
•    developing a written contingency funding plan; and
•    providing progress reports to DSC and OFIR.

PCA Non-Capital Provisions: We have stated in a prior report 11 that PCA’s focus is on
capital, and because capital can be a lagging indicator of an institution’s financial health,
a bank’s capital can remain in the “well to adequate” range long after its operations have
begun to deteriorate from problems with management, asset quality, or internal controls.
In addition, the use of PCA directives depends on the accuracy and frequency of capital
ratios in a financial institution’s Call Reports, which are prepared on a quarterly basis. In
the case of MSB, the bank’s capital adequacy fell from the top category of being Well
Capitalized in late 2007 to the bottom Critically Undercapitalized in September 2008,
with a 2-level drop in 6 days – May 2 and May 8, 2008. Further, by the time MSB’s
capital level fell below the required threshold necessary to implement PCA, the bank’s
condition had deteriorated to the point at which the institution could not raise additional
needed capital through its BOD or find other investors.

Although the primary focus of section 38 of the FDI Act is capital, sections 38 and 39
provide for certain actions based on non-capital factors to facilitate issuance of PCA
directives or to address a non-capital problem. Specifically, section 38(g) provides for
reclassification of an institution’s PCA capital category based on non-capital factors.
Section 38(f)(2)(F) provides for regulatory agencies to require an institution to improve
management when regulators consider management to be deficient. Finally, section 39
provides for regulators to require a compliance plan from institutions when they identify
problems with (1) operations and management; (2) asset quality, earnings, and stock
valuation; and (3) compensation. The RM Manual and FIAP Manual have procedures
that address section 39 provisions. For example, the FIAP manual states that a Section
39 action can be initiated for non-problem institutions in which inadequate practices and
policies could result in a material loss to the institution or management has not responded
effectively to prior criticisms. We found no documented indication that DSC considered
using non-capital provisions in its supervision of MSB.

11
  OIG Audit Report No. 03-038, The Role of Prompt Corrective Action as Part of the Enforcement
Process, dated September 12, 2003.


                                                 23
Likewise, with regard to brokered deposits and as previously mentioned, DSC’s RM
Manual provides that examiners should not wait for the PCA provisions to be triggered,
or the viability of an institution to be in question, before raising relevant safety and
soundness issues with regard to the use of brokered deposit funding sources. If a
determination is made that a bank's use of these funding sources is not safe and sound,
that risks are excessive, or that they adversely affect the bank's condition, then
appropriate supervisory action should be immediately taken. The RM Manual discusses
potential red flags that may indicate the need to take action to ensure that the risks
associated with brokered or other rate sensitive funding sources are managed
appropriately, including:

   •   Ineffective management or the absence of appropriate expertise,
   •   The absence of adequate policy limitations on these kinds of funding sources,
   •   High delinquency rate or deterioration in other asset quality indicators, and
   •   Deterioration in the general financial condition of the institution.

As previously mentioned, while DSC cautioned the bank in December 2007 that its
ability to raise brokered deposits would be diminished with a decrease in capital ratios,
DSC examiners did not raise any concerns or take any supervisory action addressing the
bank’s January 2008 purchase of brokered deposits until March 2008. Fortunately, those
brokered deposit purchases did not increase the loss to the DIF because the acquiring
financial institution purchased all of the brokered deposits held by MSB at the time of its
failure.

Federal Home Loan Bank Advances

During the period that MSB was receiving PCA capital notifications, the bank acquired
FHLB advances as a source of borrowing to improve the bank’s liquidity position.
Specifically, MSB acquired a 6-month $5 million FHLB advance on April 30, 2008, to
help ensure liquidity for the remainder of 2008 and a $1 million advance on
July 21, 2008, to supplement the bank’s liquidity. At the time of these purchases, MSB’s
PCA capital categories were Adequately Capitalized and Significantly Undercapitalized,
respectively.

Financial institutions often use FHLB advances for funding and liability management.
Advances are secured borrowings with terms ranging from overnight to 30 years. Rates
vary based on the term of repayment and other factors. To obtain advances, a financial
institution must be a member of an FHLB and, for most advances, must pledge collateral.
The FDIC recognizes that the FHLB advance program provides many financial
institutions with access to funding that is not otherwise available, and the Corporation
does not discourage the use of FHLB advances as part of a well-managed funding
program. However, FDIC guidance cautions that financial institutions that use advances
must be familiar with the terms of the particular borrowings that they use and must
consider the impact of advances when managing liquidity, interest rate risk, earnings, and
capital. A financial institution’s use of advances should be consistent with its funds
management policies, strategic plans, and management expertise.



                                            24
Appropriate Use of FHLB Advances: Section 1430 of the Federal Home Loan Bank
Act, (12 U.S.C. § 1430), Advances to Members, states that a long-term advance may only
be made for the purposes of providing funds to (1) any member for residential housing
finance, and (2) any community financial institution for small businesses, small farms,
and small agri-businesses.

MSB used FHLB borrowings during 2008 primarily to supplement the bank’s liquidity
once the bank could no longer rely on brokered deposit funding. DSC officials told us
that MSB used FHLB advances appropriately and that the advances were important to
preventing a liquidity failure. Specifically, MSB needed “replacement funding” to
essentially pay maturing brokered deposits and core deposit withdrawals and to fund
bank operations. DSC officials told us that had MSB used FHLB advances to fund asset
growth in 2008, the FDIC would have limited MSB from receiving FHLB borrowings.

FHLB’s regulatory provisions in Title 12, Banks and Banking, Part 950, Subpart A,
Advances to Members, § 950.4, Limitations on Access to Advances, state that the FHLB
shall not make a new advance to a member without positive tangible capital 12 unless the
member’s appropriate federal banking agency or insurer requests in writing that the
FHLB make such advance, and that the FHLB shall use the most recently available Call
Report to determine whether a member has positive tangible capital. Section 950.4 also
provides that the FHLB may limit or deny a member’s application for an advance if, in
the FHLB’s judgment, the member:

•    is engaging or has engaged in any unsafe or unsound banking practices;
•    has inadequate capital;
•    is sustaining operating losses;
•    has financial or managerial deficiencies, as determined by the FHLB, that bear upon
     the member’s creditworthiness; or
•    has any other deficiencies, as determined by the FHLB.

As discussed earlier, MSB was Adequately Capitalized and Significantly
Undercapitalized when the bank received the 2008 FHLB advances. MSB was also
subject to a C&D Order in July 2008 that, among other things, required the bank to cease
all lending until capital levels improved. We saw no correspondence between the FDIC
and the FHLB regarding the April 2008 $5 million advance. We did see evidence in
CRO’s files that, prior to making the $1 million advance to the bank on July 21, 2008, the
FHLB contacted the CRO for updated information on MSB. CRO provided the FHLB
publicly available information about the bank. It does not appear that DSC informed the
FHLB of the C&D Order that the FDIC imposed on MSB on July 22, 2008.



12
  According to the FHLB policy on borrowing capacity, tangible capital includes capital defined in
accordance with generally accepted accounting principles less goodwill and other intangible assets. In
addition, if an FHLB member is operating under the control of its primary federal regulator, the member
may be deemed by the FHLB to be insolvent on a tangible capital basis.


                                                   25
Impact of FHLB Advances on the Cost of MSB’s Failure: The FDIC has reported that
reliance on FHLB advances and other wholesale funds increases the risk to the DIF and
can increase the cost of bank failures. A July 2008, DRR e-Focus article on wholesale
borrowing banking industry trends noted that the DIF faces potential exposure from
FHLB advances through two channels, namely, FHLB advances could increase
(1) default probability by subsidizing risk-taking, or (2) losses-given-default by
subordinating the FDIC’s position at resolution. At the time of MSB’s failure, the bank
had a total of $11 million in FHLB advances – consisting of (1) $5 million purchased on
August 9, 2007, (2) $5 million purchased on April 30, 2008, and (3) $1 million purchased
on July 21, 2008. MSB’s FHLB advances represented nearly 31 percent of the initial
estimated material loss to the DIF caused by MSB’s failure.

DSC officials noted that while MSB’s early growth strategy was funded to a significant
degree by brokered deposits, the bank did not use FHLB advances to fund asset growth.
Instead, according to DSC, the FHLB advances helped the FDIC arrange an orderly
resolution of the bank. While DSC acknowledged difficulty in quantifying the savings to
the DIF from an orderly closure of a bank as compared to a liquidity failure, DSC
officials stated that experience has shown that there are cost savings as well as reputation
values associated with an orderly closure. Further, the officials explained that, in the case
of MSB, losses were embedded in the assets that were already funded prior to the bank
ceasing its lending activities, shrinking its assets, and deploying contingency funding
strategies that moved away from brokered deposits.

FDIC Guidance on the Appropriateness of FHLB Advances: The need for FDIC
guidelines on limiting or restricting FHLB advances for a DSC-supervised financial
institution is important as the financial markets continue to experience turmoil and
financial institution failures increase. The FDIC has identified wholesale borrowings,
which include FHLB advances and brokered deposits, as a potential indicator of “failure
risk” and reported that wholesale borrowings pose several considerations to the
Corporation, including the hierarchy for payment of secured creditors. That is, in a
resolution of a failed bank scenario, secured borrowings such as FHLB advances
subordinate the FDIC’s position at resolution and are paid first. 13

DSC guidance on FHLB advances is included in the RM Manual provisions for
examining liquidity management, an RD Memorandum, Federal Home Loan Bank
Advances, dated August 22, 2000 (RDM Transmittal Number 2000-046), and RD
Memorandum, Wholesale Funding, dated August 28, 2002 (RDM Transmittal Number
2002-039). RDM 2000-046 includes a statement that there are regulatory restrictions on
new advances or renewals to FHLB members who are operating without adequate
tangible capital.

13
  According to 12 U.S.C. § 1430 (e), “Notwithstanding any other provision of law, any security interest
granted to a Federal Home Loan Bank by any member of any Federal Home Loan Bank or any affiliate of
any such member shall be entitled to priority over the claims and rights of any party (including any
receiver, conservator, trustee, or similar party having rights of a lien creditor) other than claims and rights
that – (1) would be entitled under otherwise applicable law; and (2) are held by actual bona fide purchasers
for value or by actual secured parties that are secured by actual perfected security interests.


                                                      26
However, we did not find any FDIC regulations or guidance specifically related to (1) the
manner in which DSC could limit or restrict a financial institution’s FHLB borrowings,
should DSC deem such restrictions or limitations necessary, based on financial,
managerial, or operational deficiencies identified by DSC, or (2) the specifics of how
DSC would notify the FHLB of such restrictions or limitations.

The implications of wholesale borrowings, including FHLB advances, on the supervisory
approach to a troubled institution, are issues for the FDIC requiring further study. A
framework or decision tree defining when FHLB advances are appropriate and at what
point advances should be restricted would appear to be beneficial and warrant
consideration.


CORPORATION COMMENTS AND OIG EVALUATION
On April 8, 2009, the Director, DSC, provided a written response to the draft of this
report. DSC’s response is presented in its entirety in Appendix VI.

In its response, DSC acknowledged our assessment that MSB failed primarily due to
bank management and the BOD allowing for rapid growth and concentration of higher-
risk loan products—a strategy that left MSB highly vulnerable to the depressed and
declining real estate values and high unemployment rates prevalent in the Detroit,
Michigan area where MSB operated. DSC also recognized our conclusions that the FDIC
and Michigan OFIR conducted timely and regular examinations of MSB in accordance
with regulatory schedules established for de novo banks, and that enforcement actions
addressing MSB’s capital deficiencies in 2008 were taken in accordance with PCA
capital provisions.

Regarding our conclusion that more aggressive or timelier supervisory actions could have
been taken against MSB, DSC stated that its supervisory actions were both timely and
appropriate for MSB’s situation. In its response, DSC said that it utilized a range of bank
supervisory tools, including on-site visitations and examinations, management reporting,
off-site monitoring, interim meetings, PCA notices, and formal enforcement action in
supervising MSB’s activities. Our view remains that more aggressive or timelier
supervisory actions could have been taken to address risks associated with MSB’s plans,
operations, and financial condition.

With respect to our observation related to MSB’s use of FHLB advances during the
period that the bank was receiving PCA capital notifications, DSC noted in its response
that MSB acquired FHLB advances to improve its liquidity position and not to fund
growth or further lending. We acknowledge that MSB was using the advances for
liquidity, which poses less risk than aggressive growth. Nevertheless, the FHLB
advances can reduce an institution’s franchise value and increase FDIC resolution costs
as discussed in the Corporation’s recent guidance to institutions on volatile or special



                                            27
funding sources. Given the risk to the insurance fund, additional and more specific
examination procedures in this area may be warranted.

Finally, DSC’s response did not address the consideration of non-capital PCA provisions
or the timing of brokered deposit purchases MSB made when the bank apparently knew
that it was no longer well capitalized. We continue to suggest these issues warrant
further study.

DSC’s response also stated that, in light of the economic deterioration and its impact on
MSB and other similarly situated institutions, DSC has undertaken a number of
initiatives, listed in its response, related to the supervision of such financial institutions.
These initiatives include obtaining additional information from institutions and providing
it to examiners for risk analysis purposes, issuing guidance to institutions and examiners,
writing articles, revising supervisory approaches to CRE lending practices, and holding a
training session on analyzing business plans.




                                              28
                                                                                   APPENDIX I
                        OBJECTIVES, SCOPE, AND METHODOLOGY
Objectives

      We performed this evaluation in accordance with section 38(k) of the FDI Act, which
      provides that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our evaluation objectives were to (1) determine the causes of MSB’s failure and resulting
      material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
      including implementation of the PCA provisions of section 38, in order to make
      recommendations for preventing such loss in the future.

      We conducted the evaluation from October 2008 to January 2009 in accordance with the
      Quality Standards for Inspections.

Scope and Methodology

      The scope of this evaluation included an analysis of MSB’s operations, which opened on
      March 1, 2004, until its failure on October 10, 2008. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

      •   Analyzed examination and visitation reports prepared by the FDIC and OFIR
          examiners from 2004 to 2008.

      •   Reviewed the following:

          -- bank data and correspondence maintained at the Division of Supervision and
          Consumer Protection’s Chicago, Illinois Regional Office and Detroit, Michigan field
          office;

          -- reports prepared by the Division of Resolutions and Receiverships (DRR) and DSC
          relating to the bank's closure;

          -- Crowe Chizek and Plante Moran external audit reports;

          -- MSB bank records maintained by DRR in Dallas, Texas for information that would
          provide insight into the bank's failure; various MSB funding and loan reports; MSB
          BOD meeting minutes; MSB ALCO meeting minutes; accompanying financial
          statements; and pertinent DSC policies and procedures.




                                                   29
                                                                                  APPENDIX I
                        OBJECTIVES, SCOPE, AND METHODOLOGY



      •   Interviewed the following FDIC officials:

          -- DSC management in Washington, D.C., Chicago Regional Office, and Detroit
          Field Office; and

          -- FDIC examiners from the Detroit and Grand Rapids, Michigan, Field Offices who
          participated in examinations or reviews of examinations of MSB.

      •   Researched various banking laws and regulations, including the FDI Act and the
          FDIC Rules and Regulations.

      We performed the evaluation field work at DSC offices in Detroit, Michigan, and
      Chicago, Illinois, and the DRR office in Dallas, Texas.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the evaluation objectives, we did not assess DSC's overall
      internal control or management control structure. We performed a limited review of
      MSB’s management controls pertaining to its operations as discussed in the finding
      section of this report.

      For purposes of the evaluation, we did not rely on computer-processed data to support
      our significant findings and conclusions. Our review centered on interviews, ROEs and
      correspondence, and other evidence to support our evaluation.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the evaluation objectives. DSC’s
      compliance with the Results Act is reviewed in program audits and evaluations of DSC
      operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of reviewing evaluation evidence.




                                                  30
                                                                                          APPENDIX II
                                           GLOSSARY
        Term                                                  Definition
Adversely            Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets    classified assets are allocated on the basis of risk (lowest to highest) to three categories:
                     •    Substandard,
                     •    Doubtful, and
                     •    Loss.

CAMELS Ratings       CAMELS (an acronym for Capital adequacy, Asset quality, Management practices,
                     Earnings performance, Liquidity position, and Sensitivity to market risk) represents the
                     overall rating given to a bank based on the six components above. A rating of 1
                     through 5 is given, with 1 having the least regulatory concern and 5 having the greatest
                     concern. Based on the six component ratings, an overall composite rating of 1 through
                     5 is given to a bank as follows:
                        1. Indicates strong performance.
                        2. Reflects satisfactory performance.
                        3. Represents below average.
                        4. Refers to marginal performance that could threaten the viability of the institution.
                        5. Exhibits a critically deficient performance that threatens the viability of the
                        institution.

Cease and Desist     A C&D Order is a formal enforcement action issued by financial institution regulators
(C&D)Order           to a bank or affiliated party to stop an unsafe or unsound practice or a violation of laws
                     and regulations. A C&D Order may be terminated when the bank’s condition has
                     significantly improved and the action is no longer needed or the bank has materially
                     complied with its terms.
Concentration        A concentration is a significantly large volume of economically related assets that an
                     institution has advanced or committed to one person, entity, or affiliated group. These
                     assets may in the aggregate present a substantial risk to the safety and soundness of the
                     institution. A concentrations schedule is one of the pages that may be included in the
                     Report of Examination. As a general rule, concentrations are listed by category
                     according to their aggregate total and are reflected as a percentage of Tier 1 Capital.
Loan Loss Reserve    Federally insured depository institutions must maintain a Loan Loss Reserve level that
- also called        is adequate to absorb the estimated credit losses associated with the loan and lease
Allowance for Loan   portfolio (including all binding commitments to lend). To the extent not provided for
and Lease Losses     in a separate liability account, the loan loss reserve should also be sufficient to absorb
(ALLL)               estimated credit losses associated with off-balance sheet credit instruments such as
                     standby letters of credit.
Memorandum of        An informal agreement between a financial institution and the FDIC, which is signed
Understanding        by both parties. MOUs are designed to address and correct identified weaknesses in a
(MOU)                financial institution’s condition that are considered to be of supervisory concern but
                     have not deteriorated to the point of warranting a formal administrative action. As a
                     general rule, an MOU is to be considered for all financial institutions rated a
                     composite 3.
Prompt Corrective    The purpose of PCA is to resolve problems of insured institutions in order to prevent a
Action (PCA)         failure or minimize resulting losses. Part 325 of the FDIC Rules and Regulations, 12
                     C.F.R. section 325.101, et. seq, implements section 38, Prompt Corrective Action, of
                     the FDI Act, 12 U.S.C. section 1831(o), establishing a framework of supervisory
                     actions against insured nonmember banks that are not adequately capitalized. The
                     capital categories are:
                         Well Capitalized
                         Adequately Capitalized
                        Undercapitalized
                         Significantly Undercapitalized
                        Critically Undercapitalized




                                                   31
                                                                                     APPENDIX II
                                        GLOSSARY
        Term                                           Definition
Tier 1 (Core)     Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section 325.2 (A), as
Capital
                  The sum of:
                  •   Common stockholder’s equity (common stock and related surplus, undivided
                      profits, disclosed capital reserves, foreign currency translation adjustments, less net
                      unrealized losses on available-for-sale securities with readily determinable market
                      values);
                  •   Non-cumulative perpetual preferred stock; and
                  •   Minority interest in consolidated subsidiaries;
                  Minus:
                  •   Certain intangible assets;
                  •   Identified losses;
                  •   Investments in securities subsidiaries subject to section 337.4; and
                  •   Deferred tax assets in excess of the limit set forth in section 325.5(g).

Tier 1 Leverage   Tier 1 Capital divided by total assets.
Capital Ratio




                                               32
                                                                                             APPENDIX III
                        CHRONOLOGY OF SIGNIFICANT EVENTS


   Date                                                Event
03-01-2004   First day of Bank operations.
08-23-2004   Six-month FDIC Visitation; UFIRS rating 2/1-1-2-3-1-2; asset quality was noted as
             strong.
12-16-2004   Bank requested a modification of its original business plan to increase brokered deposits
             from 7 percent to 66 percent of total deposits.
02-10-2005   FDIC CRO and Michigan OFIR approve modified business plan, which included large
             increase in brokered deposits.
02-22-2005   First full-scope FDIC examination; UFIRS rating 2/1-1-2-3-2-2; $32 million in assets;
             noted significant brokered deposits (39 percent).
11-02-2005   The Bank requested a second modification to the business plan to increase brokered
             deposits.
01-03-2006   Second full-scope examination (State only); UFIRS rating 2/1-1-2-3-2-2; $78 million in
             assets; strong loan growth and $4.5 million in capital injection noted. Recommendation
             made for management to better monitor brokered deposits. Earnings considered fair.
02-05-2007   Third full-scope examination; UFIRS rating 2/2-3-2-2-2-2; $141 million in assets. First
             indication of asset quality issues (deterioration); asset component rating went from “1” to
             “3.” Classified assets increased almost ten-fold from 3.64 percent to 35.6 percent of
             capital. Concentrations noted.
08-21-2007   FDIC and OFIR conducted a 6-month offsite review and held a meeting to discuss actions
             taken to address asset quality issues identified in the February 2007 examination.
12-14-2007   FDIC and OFIR met with bank management who stated that there would be no loan
              growth in 2008 and the bank would focus on reducing non-performing assets and
              delinquent loans. At this meeting, DSC cautioned the Bank that MSB’s ability to raise
              brokered deposits may no longer be granted under certain capital situations and added
              that a decrease in certain capital ratios would cause the FDIC to restrict MSB from
              buying or replacing brokered deposits.
01-11-2008   MSB purchased a total of $16 million in brokered deposits.
01-16-2008
03-18-2008   Bank was notified that it was Adequately Capitalized under PCA based on 12-31-2007
             financials.
04-21-2008   FDIC/Joint OFIR examination commenced; $132 million in assets.
04-30-2008   MSB acquired a six-month $5 million FHLB advance to help ensure projected liquidity
             for the remainder of 2008.
05-02-2008   Bank notified of Undercapitalized PCA category based on March 31, 2008 Reports of
             Condition and Income.
05-08-2008   Bank’s 04-30-2008 financials place Bank in the Significantly Undercapitalized PCA
             category. Case Manager discussed order with Legal Division.

05-09-2008   Interim Rating Change Memorandum prepared to downgrade Bank to 5/5-5-4-5-4-4
05-14-2008   FDIC and OFIR met with Bank management to discuss sale and downgrade. OFIR
             delivered Capital Impairment letter to Bank.

05-19-2008   Bank Holding Company injected capital to keep leverage ratio above Critically Undercapitalized
             amount.
05-20-2008   CRO continued to draft Cease and Desist (C&D) Order and provided daily updates.
06-12-2008   Bank management met in Washington, D.C., with representatives from DSC (Senior Deputy
             Director, Associate Director, Regional Director, Regional Counsel, and Case Manager) and
             DRR Deputy Director. MSB unsuccessfully attempted to obtain regulatory forbearance or
             open bank assistance.




                                                     33
                                                                                           APPENDIX III
                       CHRONOLOGY OF SIGNIFICANT EVENTS

   Date                                              Event
06-25-2008   C&D language finalized. Focus of order was capital. BOD signed the stipulation on 07-09-2008.
07-17-2008   Signed stipulation received in the RO and prepared for final issuance. C&D effective
             date: 08-01-2008.
07-21-2008   MSB acquired a $1 million FHLB advance to supplement the Bank’s liquidity.
09-12-2008   BOD and regulators met, and Bank was notified that it was Critically Under Capitalized.
10-10-2008   Main Street Bank closed by OFIR at 5:45 p.m., and the FDIC was named receiver.




                                                    34
                                                                                   APPENDIX IV
                     FDIC AND OFIR REPORTS OF EXAMINATION

      Date                                Examination Conclusions and Comments and Risk
                  CAMELS     Assets
 Examination                              Management Assessment Items Cited in 2004
                  Ratings    (Millions)
Started/Agency                            Visitation and Reports of Examination 2005-2008
08-23-2004        2/112312   $17          Examination Conclusions and Comments. Seven
FDIC Visitation                           recommendations related to the Gramm-Leach-Bliley Act,
                                          including developing written program and obtaining BOD
                                          approval.

                                          Other recommendations included:
                                          • develop guidelines for placing loans on the watch list,
                                          • develop Mortgage Banking Policy,
                                          • address outstanding regulations regarding Allowance for Loan
                                              and Lease Losses (ALLL), analysis and documentation, and
                                          • review and revise policies to appropriately address guidelines
                                              regarding ratios.

                                          Management to monitor the bank’s progress. Management should
                                          specifically revisit the Capital Policy and the Asset Liability
                                          Policy.

                                          The Risk Management Assessment also included minor
                                          recommendations regarding the bank’s ALLL methodology and
                                          credit administration. Management was also asked to address
                                          seven items regarding asset/liability management in the
                                          investment function.

02-22-2005        2/112322   $32          MSB was asked to adopt mortgage banking policies that addressed
FDIC                                      six areas, including: segregation of duties, origination, closing,
                                          funding, quality control, and lending limits. A similar
                                          recommendation was made during the initial 6-month visitation.

                                          Management should thoroughly document the review of interest
                                          rate risk assumptions and they should be reviewed by Asset and
                                          Liability Committee (ALCO).

                                          The Risk Management Assessment noted that policies should be
                                          expanded to include acceptable collateral margins for lending on
                                          existing machinery and equipment.

                                          Also, the bank should implement an independent review of the
                                          bank’s asset/liability area and develop interest risk parameters and
                                          improve the Bank Secrecy Act (BSA) policy in four areas,
                                          including training and internal audit.




                                              35
                                                                                  APPENDIX IV
                     FDIC AND OFIR REPORTS OF EXAMINATION

      Date                                Examination Conclusions and Comments and Risk
                  CAMELS     Assets
 Examination                              Management Assessment Items Cited in 2004
                  Ratings    (Millions)
Started/Agency                            Visitation and Reports of Examination 2005-2008
01-03-2006 OFIR   2/112322   $78          Three recommendations regarding liquidity and non-interest
                                          sensitivity, including monitoring the high level of brokered
                                          deposits through the brokered deposits to deposits and net non-
                                          core funding dependence ratios, as defined in the Uniform Bank
                                          Performance Report (UBPR) User Guide.

                                          Also, the BOD should adopt an absolute policy guidance limit to
                                          the level of brokered deposits.

                                          Seven examination recommendations in the lending functions
                                          included :

                                          •   monitoring loan-to-value reporting exceptions,

                                          •   more comprehensive policy guidance on unsecured lending,
                                              and

                                          •   timeframes for loan modification.

                                          The Management/Administration/Risk Management Section
                                          (OFIR Reporting language differs from the FDIC) made:

                                          •   recommendations to strengthen the underwriting and credit
                                              administration practices, including establishing a mechanism
                                              for monitoring and reporting loan exceptions;

                                          •   three recommendations related to Loan Policy;

                                          •   one recommendation relating to Mortgage Banking Policy;

                                          •   one recommendation relating to Credit Quality; and

                                          •   two recommendations relating to Documentation.

                                          There were also three recommendations relating to risk
                                          management practices for asset/liability management and general
                                          investment guidelines.




                                              36
                                                                                 APPENDIX IV
                    FDIC AND OFIR REPORTS OF EXAMINATION

      Date                               Examination Conclusions and Comments and Risk
                 CAMELS     Assets
 Examination                             Management Assessment Items Cited in 2004
                 Ratings    (Millions)
Started/Agency                           Visitation and Reports of Examination 2005-2008
02-05-2007       2/232222   $141         Recommendations stated that loan quality had deteriorated and the
FDIC                                     volume of problem assets was considered high.

                                         Further, brokered deposits had been used to fund aggressive loan
                                         growth, but the brokered deposit program was considered well
                                         managed.

                                         Concentrations of Credit were noted.

                                         The bank’s loan portfolio was heavily concentrated in inherently
                                         high-risk type loans, such as construction, home equity, and non-
                                         owner occupied residential improvement loans. These types of
                                         loans were particularly vulnerable in markets with depressed real
                                         estate values and high unemployment rates.

                                         There was an apparent violation of Regulation O due to a director
                                         overdraft, which remained outstanding longer than 5 days, but
                                         management had taken steps to prevent future violations.

                                         The Risk Management Assessment stated that examiners
                                         recommended 11 items to enhance mortgage banking activity,
                                         including:

                                         •   reviewing contracts with secondary market investors,

                                         •    ensuring that quality control reviews were performed and
                                             documented,

                                         •   establishing segregation of duties in the mortgage department,
                                             and

                                         •   expanding internal audit procedures to include mortgage
                                             banking activity.

                                         Examiners made three recommendations related to the ALLL; two
                                         recommendations related to enhancing the liquidity policy; and
                                         several recommendations related to internal controls, audit
                                         procedures, and compliance with laws and regulations.




                                             37
                                                                                   APPENDIX IV
                     FDIC AND OFIR REPORTS OF EXAMINATION

      Date                                Examination Conclusions and Comments and Risk
                  CAMELS     Assets
 Examination                              Management Assessment Items Cited in 2004
                  Ratings    (Millions)
Started/Agency                            Visitation and Reports of Examination 2005-2008
04-21-2008        5/554544   $132         Examiners noted critical financial position with earnings and
FDIC and OFIR                             capital insufficient to support present banking activities without
(Report of                                significant capital inflows.
Examination not
issued)                                   The poor quality of the loan portfolio was internally evidenced by
                                          high levels of observed loan delinquencies, non-accruals, defaults,
                                          and loan charge offs. Significantly Undercapitalized status under
                                          PCA provisions of Section 38 of the FDI Act.

                                          A joint regulatory Cease and Desist Order (“Order”) was issued on
                                          July 22, 2008, with provisions to address the most immediate
                                          Items of regulatory concern. An amendment to that Order was
                                          being considered for items mentioned in the Report of
                                          Examination.

                                          Five examination findings related to Capital; and seven
                                          examination findings included a high level of adversely classified
                                          assets, non-performing assets, and loan losses. A large number of
                                          loans were on management’s “watchlist.” Three findings related
                                          to the ALLL.

                                          Three findings related to earnings, including unprofitability,
                                          inability of earnings to support operations, and net interest margin
                                          constricted due to a high level of nonaccrual loans. Three findings
                                          related to liquidity, including levels were inadequate. Two
                                          findings related to sensitivity to market risk; six related to
                                          management, including one apparent violation of law which was a
                                          failure to file Suspicious Activity Reports in a timely manner and
                                          timeliness of internal audit.

                                          Seven recommendations related to mortgage banking, including
                                          the following repeat findings. Ensure that quality control reviews
                                          are performed and documented regularly and timely. Incorporate
                                          testing of the secondary marketing policies, and procedures.
                                          Ensure report accuracy within the internal audit schedule. The
                                          review should, at a minimum, include processes, segregation of
                                          duties, report accuracy, policy compliance, and review of quality
                                          control findings. Ensure the Mortgage Lending Policy
                                          corresponds with actual practice and corresponds with other
                                          portions of the Loan Policy. Finally, review and document, at
                                          least annually, the financial condition of the secondary market
                                          investors used by the mortgage department.

                                          Three recommendations related to the Bank Secrecy Act; three
                                          recommendations related to Information Technology; and 22 Loan
                                          Policy Recommendations/Observations.
10-10-2008                                MSB closed by Michigan Office of Insurance and Financial
                                          Regulation (OFIR) and the FDIC appointed Receiver.



                                              38
                                                                            APPENDIX V


    EXAMINATION RECOMMENDATIONS AND ENFORCEMENT ACTIONS

A cornerstone of a healthy deposit insurance system is the process used by regulators to
identify and, to the extent possible, remedy unsafe and unsound banking practices and
noncompliance with laws and regulations. The FDIC’s supervisory process attempts to
identify problems and seek solutions early enough to enable remedial action that will
prevent serious deterioration in a bank’s condition and reduce risk to the FDIC insurance
fund. When problems are detected, examiners must determine the severity along with the
timing and form of needed corrective actions. The FDIC uses a number of tools to
address supervisory concerns related to the safety and soundness of financial institutions
and their compliance with laws and regulations. These tools include examination
recommendations, informal enforcement actions, and formal enforcement actions.

Examination Recommendations

The purposes of bank examinations are to:

•   Maintain public confidence in the integrity of the banking system and in individual
    banks.
•   Provide the best means of determining a bank’s adherence to laws and regulations.
•   Help prevent problem situations from remaining uncorrected and determine the point
    where costly financial assistance by the FDIC becomes unavoidable.
•   Supply supervisory regulators with an understanding of the nature, relative
    seriousness, and ultimate cause of a bank’s problems, thus providing a factual
    foundation to soundly base corrective measures, recommendations, and instructions.

Nearly all corrective actions are initiated as a result of facts and circumstances uncovered
by DSC examiners during examinations of financial institutions. DSC’s RM Manual
requires examiners to describe any problems detected during examinations and to
recommend corrective action. The Examination Conclusions and Comments (ECC)
pages of the ROE should convey all significant examination conclusions,
recommendations, and management responses to the primary readers of the ROE,
namely, bank management and the bank’s BOD. Generally, DSC’s transmittal of the
ROE to the examined bank will request the BOD to review the report, sign the
Directors/Trustees page included at the end of the report, and note its review in BOD
meeting minutes. For those banks with moderate concerns, the transmittal letter should
include a brief discussion of problem areas and a request for a written response.

For relatively inconsequential deficiencies that do not affect the safety and soundness of a
bank, it is generally sufficient for examiners to inform the institution’s management of
the deficiencies and work with the bank to correct the problems. If such action would not
be sufficient or if serious deficiencies exist, examiners can discuss appropriate corrective
measures, such as formal or informal enforcement actions, with FDIC management and
proceed with the action deemed appropriate for the particular circumstances.




                                            39
                                                                                     APPENDIX V


  EXAMINATION RECOMMENDATIONS AND ENFORCEMENT ACTIONS

Enforcement Actions

Enforcement actions are discussed in the FDIC’s Formal and Informal Action
Procedures Manual (FIAP Manual), dated December 20, 2005. According to the FIAP
Manual, the FDIC generally initiates formal or informal corrective action against
institutions with a composite safety and soundness or compliance rating of a “3,” “4” or
“5,” unless specific actions warrant otherwise. Informal actions are voluntary
commitments made by an insured financial institution’s BOD. Such actions are designed
to correct noted safety and soundness deficiencies or ensure compliance with Federal and
State laws. Informal actions are not legally enforceable and are not available to the
public.

Informal actions are designed to address and correct identified weaknesses in an
institution’s financial condition, performance, risk management practices, and regulatory
compliance. Further, the FIAP Manual states that informal actions are particularly
appropriate when the FDIC has communicated with bank management regarding
deficiencies and has determined that the institution’s managers and BOD are committed
to and capable of effecting correction with some direction, but without the initiation of a
formal action. There are two types of informal actions, as defined below.

Type of Informal
                      Definition                                   When Used
Action
Bank Board            Informal commitments adopted by a            Generally considered for financial
Resolutions (BBR)     financial institution’s BOD directing the    institutions receiving a CAMELS
                      institution’s personnel to take corrective   composite rating of “3.” May also
                      action regarding specific noted              be appropriate if an institution’s
                      deficiencies.                                performance was of supervisory
                                                                   concern at a previous examination,
                                                                   but past corrective action has been
                                                                   successful and remaining concerns
                                                                   are minor.
Memorandum of         An informal agreement between a financial    Generally used when there is reason
Understanding         institution and the FDIC, which is signed    to believe the deficiencies noted
(MOU)                 by both parties. The State authority may     during an examination need a more
                      also be a party to the agreement.            structured program or specific terms
                                                                   to effect corrective action.
Source: FDIC FIAP Manual.

The FIAP Manual also states that “Informal actions can also include any other informal
action deemed necessary for the situation and condition of a financial institution (this
category includes any informal action not considered a BBR or MOU, such as a
Supervisory Letter).”

Formal actions are notices or orders issued by the FDIC against insured financial
institutions and/or individual respondents. The purpose of formal actions is to correct
noted safety and soundness deficiencies, ensure compliance with Federal and State


                                                   40
                                                                          APPENDIX V


  EXAMINATION RECOMMENDATIONS AND ENFORCEMENT ACTIONS

banking laws, assess civil money penalties, and/or pursue removal or prohibition
proceedings. Formal actions are legally enforceable. Final orders are available to the
public after issuance.




                                           41
                       Appendix VI
CORPORATION COMMENTS




         42
     APPENDIX VI




43
     APPENDIX VI




44
     APPENDIX VI




45
